<html>
<title> - CHINA'S NEW ``TWO-CHILD POLICY'' AND THE CONTINUATION OF MASSIVE CRIMES AGAINST WOMEN AND CHILDREN</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


            CHINA'S NEW ``TWO CHILD POLICY'' AND THE CONTINUATION 
             OF MASSIVE CRIMES AGAINST WOMEN AND CHILDREN
=======================================================================

                                HEARING

                               BEFORE THE

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 3, 2015

                               __________

 Printed for the use of the Congressional-Executive Commission on China
 
 
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


         Available via the World Wide Web: http://www.cecc.gov
         
                               ____________
                               
                        U.S. GOVERNMENT PUBLISHING OFFICE
98-715 PDF                    WASHINGTON : 2016                        
______________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f394839cb3908680879b969f83dd909c9edd">[email&#160;protected]</a>  




              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS

House

                                     Senate

CHRIS SMITH, New Jersey, Chairman    MARCO RUBIO, Florida, Cochairman
ROBERT PITTENGER, North Carolina     TOM COTTON, Arkansas
TRENT FRANKS, Arizona                STEVE DAINES, Montana
RANDY HULTGREN, Illinois             JAMES LANKFORD, Oklahoma
DIANE BLACK, Tennessee               BEN SASSE, Nebraska
TIM WALZ, Minnesota                  SHERROD BROWN, Ohio
MARCY KAPTUR, Ohio                   DIANNE FEINSTEIN, California
MICHAEL HONDA, California            JEFF MERKLEY, Oregon
TED LIEU, California                 GARY PETERS, Michigan

                     EXECUTIVE BRANCH COMMISSIONERS

                 CHRISTOPHER P. LU, Department of Labor
                   SARAH SEWALL, Department of State
                STEFAN M. SELIG, Department of Commerce
                 DANIEL R. RUSSEL, Department of State
                  TOM MALINOWSKI, Department of State

                     Paul B. Protic, Staff Director

                Elyse B. Anderson, Deputy Staff Director

                                  (ii)
                            
                            C O N T E N T S

                              ----------                              

                               Statements

                                                                   Page
Opening Statement of Hon. Christopher Smith, a U.S. 
  Representative from New Jersey; Chairman, Congressional-
  Executive Commission on China..................................     1
Pittenger, Hon. Robert, a U.S. Representative from North Carolina     3
Lieu, Hon. Ted, a U.S. Representative from California............     4
Hultgren, Hon. Randy, a U.S. Representative from Illinois........     5
Hartzler, Hon. Vicki, a U.S. Representative from Missouri........     5
Eberstadt, Henry, Henry Wendt Scholar in Political Economy, The 
  American Enterprise Institute..................................     6
Littlejohn, Reggie, Founder and President, Women's Rights Without 
  Frontiers......................................................     8
Huang, Sarah, Women's rights advocate............................    12
Li, Jennifer, Co-founder, China Life Alliance....................    14
Mosher, Steven W., President, Population Research Institute......    17

                                APPENDIX
                          Prepared Statements

Eberstadt, Henry.................................................    32
Littlejohn, Reggie...............................................    35
Huang, Sarah.....................................................    40
Li, Jennifer.....................................................    50
Mosher, Steven W.................................................    51

Smith, Hon. Christopher, a U.S. Representative from New Jersey; 
  Chairman, Congressional-Executive Commission on China..........    57
Rubio, Hon. Marco, a U.S. Senator from Florida; Cochairman, 
  Congressional-Executive Commission on China....................    58

                       Submissions for the Record

``How Many `Missing Females' for China's One Child Policy Era 
  (1981-2015)?,'' submitted by Henry Eberstadt...................    60
Op-ed from the Wall Street Journal titled, ``China's New Two-
  Child Policy and the Fatal Conceit,'' by Henry Eberstadt, dated 
  October 29, 2015...............................................    66
Witness Biographies..............................................    67

 
CHINA'S NEW ``TWO-CHILD POLICY'' AND THE CONTINUATION OF MASSIVE CRIMES 
                       AGAINST WOMEN AND CHILDREN

                              ----------                              


                       THURSDAY, DECEMBER 3, 2015

                            Congressional-Executive
                                       Commission on China,
                                                    Washington, DC.
    The hearing was convened, pursuant to notice, at 10:02 
a.m., in Room HVC 210, Capitol Visitor Center, Hon. Christopher 
Smith, Chairman, presiding.
    Also Present: Representatives Pittinger, Lieu, Hultgren, 
Pitts, and Hartzler; and Senators Brown and Daines.

      OPENING STATEMENT OF HON. CHRISTOPHER SMITH, A U.S. 
    REPRESENTATIVE FROM NEW JERSEY; CHAIRMAN, CONGRESSIONAL-
                 EXECUTIVE COMMISSION ON CHINA

    Chairman Smith. Good morning to everybody.
    The Chinese Government has spent the past 35 years telling 
couples what their families must look like.
    Thirty-five years of state-sponsored violence against 
women, including coerced abortions and involuntary 
sterilizations, in the name of population control.
    Thirty-five years of viewing children as excess baggage 
from the day they are conceived, particularly the girl child.
    Thirty-five years of wasting precious human capital and 
potential, and 35 years of committing massive crimes against 
women and children, enabled by pro-abortion, non-governmental 
organizations and the United Nations Population Fund, or the 
UNFPA.
    Despite the platitude and applause by some being heaped on 
China's announced two-child policy, the proposal does not 
change the basic structure of coercive population control, and 
it is not some major reversal of policy to be lauded.
    And, this so-called reform is not even a done deal yet. 
According to the world-famous demographer, Dr. Nicholas 
Eberstadt, who will testify today, the one-child policy may 
become a two-child policy, but the coercive population control 
apparatus remains unchanged.
    Dr. Eberstadt says, ``To be clear,'' and I quote him here, 
``that shift has not yet taken place. To the contrary, just 
days after the October 29 announcement, China's National Health 
and Family Planning Commission, which oversees the population 
program, emphasized that the new norms were not yet, `valid' 
and described the two-child policy as a `proposal,' indicating 
furthermore that `this proposal would have to be approved by 
Beijing's legislature next year before it might eventually be 
enacted.''
    That said, the two-child policy may allow for more births, 
if enacted, at some future date, but it does not remove the 
pernicious incentives given the local officials to pressure and 
force mothers to abort a child if the birth has not been 
approved by the state or is the couple's third child.
    Chinese families are still not free to determine the size 
of their own families, nor does this policy erase the enormous 
physical and psychological damage imposed on women done by 
three-and-a-half decades of highly coercive birth limitations.
    We should not be applauding China's policy. We should be 
insisting, however, that they abolish all birth limits forever.
    Chen Guangcheng, the famous Chinese legal advocate and 
human rights champion, calls China's population control 
policies genocide. He calls for an international tribunal to 
vigorously investigate these crimes against humanity. And Mr. 
Chen calls on the Obama administration to enforce existing U.S. 
law and bar Chinese officials associated with the policy from 
entry to the United States.
    I would note parenthetically that I wrote that law in 2000. 
The Admiral Nance-Meg Donovan Foreign Relations Act, there was 
a provision of that law, and I wrote it, and the Obama 
administration has completely and utterly failed to enforce and 
implement its provisions.
    Today we are sending another letter--and I have asked this 
at multiple hearings over the last several years--asking the 
President to just simply implement the law, which he has not 
done. And, hopefully, we will get an answer back at least 
giving a reason why they have chosen not to implement a human 
rights law.
    The Chinese Government is not the only one culpable in this 
heinous crime against women and children. The U.N. Population 
Fund [UNFPA], as we know, helped fund birth restrictions, fund 
forced abortions and a massive and coercive family planning 
bureaucracy.
    Several years ago I had a face-to-face meeting in Beijing 
with Madame Peng Pei-yun, the bureaucrat in charge of China's 
draconian population program. Madame Peng repeatedly told me 
that my concerns about coercion were unfounded and said the 
UNFPA was there. They were on the ground and found no coercion 
whatsoever. Of course, that is a complete whitewash.
    The UNFPA has whitewashed China's crimes for decades and 
continues to do so today. On their website, the UNFPA justifies 
its history in China, saying that they were tasked by the 
executive committee to help China and had to engage with China 
as a sovereign nation.
    Since 1994, the UNFPA claims that their efforts have 
focused on getting China to adopt a rights-based approach to 
family planning, saying they oppose coercion, violence, forced 
abortion, and sterilization as a violation of basic human 
rights.
    Yet there is absolutely no evidence that their efforts made 
one bit of difference in changing China's policy. And again, 
part of the answer to critics like myself and others has always 
been the UNFPA is here, on the ground, and they give us a clean 
bill of health.
    The UNFPA, I would submit, is complicit in China's coercive 
population control policies. The United States and others who 
help fund the UNFPA programs in China are also complicit. It is 
a dark and bloody stain that cannot be washed away.
    I would note again that the Kemp-Kasten law, current law, 
it will be repeated again even in the Omnibus Bill that will be 
adopted probably by the end of next week, continues the UNFPA 
ban via the Kemp-Kasten, which requires a due-diligence effort 
by the administration, which they have not done, and they just 
send a check to New York without even going through the 
motions.
    I hope China will abolish all aspects of its horrific birth 
control policy as soon as possible, and it ought to be looking 
to compensate its victims. For me and many others opposed to 
this policy, it is a matter of justice and human rights. For 
the Chinese Government, it is now becoming increasingly a 
matter of economic survival.
    China's government says it is instituting a two-child 
policy to stem the twin demographic time bombs of a rapidly 
aging population and millions of men unable to find wives. But 
this new policy is unlikely to solve those problems.
    As the Economist has noted, by 2025 nearly one in four 
Chinese citizens will be over the age of 60. At the same time, 
China's working-age population has shrunk in each of the past 
three years. These factors are likely to hurt not only the 
government balance sheets, but also economic growth in China.
    This should be of particular concern to the Chinese 
Communist Party, as economic growth is the primary source of 
their ill-begotten legitimacy.
    The minimal policy change announced in October will do 
little to address the three decades-plus decimation of the 
female population.
    Approximately 40 million women and girls--and I think the 
number is far higher, perhaps millions more--are missing from 
the population. A policy that can only be accurately described 
as gendercide; the extermination of the girl child in society--
simply because she happens to be a girl. The lack of girls has 
led to a dramatically skewed gender ratio. An estimated 30-plus 
million--some say 40--will be unable to find wives in the 
coming decades. I mean, that is unbelievable, and that has 
become a magnet for human trafficking.
    The Chinese Government should be concerned, as should 
China's neighbors, as to the consequences of this. It is a 
ticking time bomb. We now see more human trafficking and forced 
marriages and sexual slavery. NGOs working in Vietnam, 
Cambodia, Burma, have all reported an increase in trafficking 
of women and girls into China in recent years. And even if 
China ends its birth restrictions, given its current 
demographics, this problem of the shortage of women in China 
will only get worse in the coming decade.
    I would like to now yield to Mr. Pittenger, a Commissioner, 
for any comments he might have.

STATEMENT OF HON. ROBERT PITTENGER, A U.S. REPRESENTATIVE FROM 
                         NORTH CAROLINA

    Representative Pittenger. Thank you, Mr. Chairman, and 
thank you for your leadership in such a grave concern to each 
of us.
    I returned from China. I was there this fall, meeting with 
the leadership in Beijing and Shanghai and Shenzhen, with 
business leaders and government leaders, and had formal and 
informal discussions regarding issues related to human rights, 
religious liberties, freedoms of conscience, and, yes, the 
issues related to forced abortions.
    On one occasion, one of the leaders quietly lamented to me 
that they felt that this policy was horrific and should 
hopefully be changed in their culture. And they saw the impact 
that it had on women's lives and was a real dark stain upon 
their culture. So my hope and prayer is that that will take 
place.
    However, the Chinese Government has shown blatant disregard 
for these basic human rights of their people. These thinly 
veiled offenses against freedom of the press, expression, 
religion, and speech, as well as their focused attacks on 
international entities and human rights advocates paint a 
picture of a stifling and oftentimes terrifying life for the 
Chinese people.
    China's population control policies are perhaps the most 
widely known offense. These policies are particularly egregious 
and are arguably the most systemically and heavily enforced in 
the world, with severe emotional and physical harm on women.
    China's national and provincial family planning laws and 
regulations stipulate if, when, and how often Chinese citizens 
may bear children. At the local level, enforcement of 
population control policies has led to reports of traumatic 
violations of individual rights, including forced abortions, 
sterilizations, involuntary implantation of birth control 
devices, and illegal children going unregistered.
    Last month, China announced that their one-child policy 
would become a two-child policy. While this change shows that 
the Chinese Government recognized the failure of its policy, it 
is, frankly, not enough.
    With a rapidly aging population, shrinking workforce and a 
large cohort of young men who will be unable to establish 
families, China's continued adherence to its population control 
policies--not only does it violate international human rights 
standards, but goes against China's own interest.
    We must continue unwaveringly to take a firm stand in 
opposition to China's population control policies, using every 
reasonable resource available to facilitate their abolition.
    Thank you.
    Chairman Smith. Representative Lieu?

    STATEMENT OF HON. TED LIEU, A U.S. REPRESENTATIVE FROM 
                           CALIFORNIA

    Representative Lieu. Thank you, Mr. Chair.
    Last month I had an opportunity to go to Hong Kong, 
Beijing, and Tibet with Leader Pelosi, on a CODEL. We raised 
issues of religious freedom, autonomy in Tibet, and human 
rights across China. It has been widely acknowledged that 
China's one-child policy has been a disaster.
    I look forward to hearing from the witnesses what they 
think of China's new policy, which also continues to restrict 
human freedom.
    Thank you.
    Chairman Smith. Thank you very much, Mr. Lieu.
    Commissioner Hultgren?

 STATEMENT OF HON. RANDY HULTGREN, A U.S. REPRESENTATIVE FROM 
                            ILLINOIS

    Representative Hultgren. I do not have much but a comment--
and that is, this is such an important subject for us to be 
discussing, to figure out ways that we as Members of Congress 
can highlight, really, the tragedy, the loss that has happened 
there, and the need for change of policy--real change in 
policy, not just talk. So I am looking forward to hearing from 
our witnesses.
    I yield back.
    Chairman Smith. Thank you.
    The distinguished gentlelady from Missouri, Vicki Hartzler.

 STATEMENT OF HON. VICKI HARTZLER, A U.S. REPRESENTATIVE FROM 
                            MISSOURI

    Representative Hartzler. Thank you, Mr. Chairman. I am just 
glad to be able to be a part today of this very important 
discussion and hope that we will be able to advocate and do 
something to help the women and the families of China be able 
to determine their own futures.
    Thank you.
    Chairman Smith. Thank you very much.
    I would like to introduce our distinguished panel, 
beginning with Dr. Nicholas Eberstadt, who is the Henry Wendt 
Scholar in Political Economy at The American Enterprise 
Institute. A political economist and demographer by training, 
he is a senior adviser to the National Bureau of Asian Research 
and has served on the visiting committee at the Harvard School 
of Public Health, the Global Leadership Council, the World 
Economic Forum, and the President's Council on Bioethics. He 
has also served as a consultant to the World Bank, Department 
of State, U.S. Agency for International Development, and the 
Bureau of the Census.
    Ms. Reggie Littlejohn is founder and president of Women's 
Rights Without Frontiers, a broad-based international coalition 
that opposes forced abortion and sexual slavery in China. Ms. 
Littlejohn is an acclaimed expert on China's one-child policy, 
having testified six times before the U.S. Congress, three 
times before the European Parliament, and presented at the 
British, Irish, and Canadian Parliaments as well.
    She has briefed officials at the White House, Department of 
State, United Nations, and the Vatican. Her Save-a-Girl 
Campaign has saved more than 150 baby girls from sex-selective 
abortion or grinding poverty in China.
    Ms. Jennifer Li lived in China for many years and is 
cofounder of China Life Alliance, a network of individuals, 
churches, and ministries who seek to protect the lives of 
millions in China who are threatened by abortion, infanticide, 
abandonment, and human trafficking.
    They do this by educating and mobilizing groups to rescue 
women and save children through their safe house network, legal 
aid network, coercive abortion rescue teams, and in a variety 
of other ways.
    We will then hear from Ms. Sarah Huang, who has personally 
rescued more than 80 Chinese women and children threatened by 
abortion, infanticide, abandonment, and trafficking.
    Since 2013, international media has covered the efforts of 
Sarah, a humble pastor in China who has been nicknamed the 
Mother Teresa of China. And she courageously assists vulnerable 
women who must hide their pregnancies to escape coercive 
abortions from Chinese family planning cadres.
    Sarah has been working closely behind the scenes with China 
Life Alliance and has been pivotal in assisting numerous 
Chinese families, including a number of widely reported forced 
abortion cases that have been leaked into the international 
media.
    Sarah Li is currently pregnant with her second child and 
now experiencing her own battle to save the life of her unborn 
child from a mandatory abortion.
    We will then hear from Mr. Steven Mosher, who is president 
of the Population Research Institute and has worked tirelessly 
since 1979 to fight coercive population control programs. He is 
an internationally recognized authority on China and population 
issues. He served as director of the Asian Study Center at the 
Claremont Institute from 1986 to 1995 and was appointed in 1991 
to serve as commissioner of the U.S. Commission on Broadcasting 
to the PRC.
    Following a period of naval service in 1979, he became the 
first American social scientist permitted to do research in 
China since the Communist revolution. And I would note that it 
was Steven Mosher who broke the story to the world and to 
Congress about what was going on, and his books and his 
writings brought the bright line of scrutiny to this infamous 
policy. And that was in the early 1980s. So I want to thank Dr. 
Mosher for that leadership.
    Dr. Eberstadt?

STATEMENT OF HENRY EBERSTADT, HENRY WENDT SCHOLAR IN POLITICAL 
            ECONOMY, AMERICAN  ENTERPRISE INTSTITUTE

    Mr. Eberstadt. Mr. Chairman, Members of Congress, 
distinguished co-panelists and esteemed guests, it is an honor 
and a pleasure to be here with you today. With your permission, 
I would like to ask that a recent Wall Street Journal op-ed I 
did on this same subject be added to the record.
    Chairman Smith. Without objection, so ordered.
    Mr. Eberstadt. On October 29 of this year, a shift from a 
one-child to a two-child norm was announced by the Central 
Committee of the Chinese Communist Party at the 5th Plenum of 
the 18th Party Congress. In other words, the Party signaled 
that it would be abandoning the one-child policy it had 
promulgated and would now be moving to allow all parents in 
China to have two children.
    To be clear, as the Chairman has already indicated, that 
shift has not yet taken place. Suffice it to say that the 
particulars of the new two-child policy thus still remain to be 
seen. It is not too soon, however, to make a few basic points.
    First, the end of the one-child policy will not mean the 
end of coercive birth control in China. This is a critical fact 
that cannot be underscored sufficiently.
    The Chinese Government is not retiring its enormous 
apparatus of involuntary population plan enforcement. Beijing 
is not relinquishing its claim that the state rather than 
parents should be the proper authority for deciding how many 
children China's families may have. Instead, the Chinese 
Communist Party is merely preparing to recalibrate the birth 
restrictions it will impose on its subjects.
    By all indications, the sorts of ugly human rights 
violations that other witnesses will be describing here this 
morning, up to and including criminalizing out-of-quota 
pregnancies and forcibly compelling abortions against the will 
of the mother, will still be very much part and parcel of 
China's population policy agenda.
    Second, any two-child norm would necessarily and 
inescapably still expose parents who desire more than two 
children to coercive birth control. For China's population 
planners, there is no contradiction whatsoever between raising 
the permissible birth quota and deploying the power of the 
state against birth quota violators.
    Third, in addition to its obvious demographic focus, 
China's population program should be understood to serve more 
broadly as an instrument of population control, in the more 
general sense of social control. And it is not a stand-alone 
policy in China in this regard.
    We must bear in mind contemporary China's hukou system of 
household registration and residence permits, the likes of 
which is only seen otherwise today in the DPRK, i.e., North 
Korea.
    At this writing, a distinct majority of the young men and 
women in China's big cities, thanks to this hukou program, are 
de facto illegal aliens in their own country for violating 
these established hukou rules. I can show you a little graphic 
of this on the slide over there. The blue and red are the non-
hukou residents in big cities. The transparent is the legal 
residents in big cities.
    The hukou violators do not have rights to social services 
in their new locales. They cannot move their families with 
them. They are discriminated against economically in the cities 
and they will always, always lose in any dispute with locals. 
It is akin to Soweto with Chinese characteristics.
    One might think that the obvious solution to this problem 
would be to relax the hukou restrictions or to scrap them 
altogether. But despite considerable talk of hukou reform over 
the past two decades in Beijing, Chinese authorities have shown 
extreme reluctance to do away with the hukou system and 
practice.
    Given both the nature of Chinese rule and the traditions 
that predate it, we should not be surprised if authorities in 
Beijing prove similarly surprisingly attached to coercive 
population policy precisely because of the social control it 
affords the rulers over the ruled.
    Fourth, it is worth noting that some Chinese researchers 
and academics are already calling for more aggressive measures 
to stimulate population growth. Is it possible that Beijing 
might reverse course in the future and veer from anti-natal to 
pro-natal coercive birth control?
    Steven Mosher is here this morning and I do not want to 
steal any of Steve's thunder, but I would be a plagiarist if I 
did not quote him on what he has written about this.
    Steve has said ``the same Party officials who have been 
responsible for decades of forced abortions and sterilizations 
would presumably have no qualms over enforcing mandatory 
pregnancy on young women, if they were ordered to do so.''
    Finally, among the many unanswered questions concerning 
coercive birth control in China, the most important and perhaps 
also surprising is its ultimate demographic impact.
    Strange as this may sound, demographers and population 
specialists have yet to offer a plausible and methodologically 
defensible estimate of just how much this extraordinarily 
ambitious and ruthless adventure in social engineering has 
actually altered the size and composition of China's 
population. I have submitted some slides and some additional 
testimony on this matter.
    Let me just conclude by saying forcible birth control looks 
to be the Chinese Government's preferred policy path for the 
indefinite future. What is incontestable is that this path 
guarantees systematic human rights abuse. Much less well 
understood is what impact forcible population control stands to 
exert on the demographic rhythms of Chinese society. 
Demographic specialists need to pay much more attention to this 
question than they have to date.
    Thank you.
    Chairman Smith. Dr. Eberstadt, thank you so very much.
    Ms. Littlejohn?
    [The prepared statement and op-ed of Mr. Eberstadt appear 
in the appendix.]

STATEMENT OF REGGIE LITTLEJOHN, FOUNDER AND PRESIDENT, WOMEN'S 
                    RIGHTS WITHOUT FRONTIERS

    Ms. Littlejohn. Honorable members of the Commission, 
Representative Chris Smith, Mr. Pittenger, Mr. Lieu, Mr. 
Hultgren, I am grateful for this opportunity to testify here 
today as we discuss China's new two-child policy, which 
continues the massive crimes against women and children under 
the one-child policy.
    Xinhua News Agency reported on October 29 that China is 
moving from a one-child policy to a two-child policy, and used 
the word that they were ``abandoning'' the one-child policy. 
That word is extremely misleading.
    The two-child policy will not end any of the human rights 
abuses that were caused by the one-child policy, including 
forced abortions, forced sterilizations as well as the sex-
selective abortion of baby girls.
    Coercion and control remain at the core of the two-child 
policy, just as it was under the one-child policy. As Chen 
Guangcheng succinctly tweeted, ``there is nothing to be happy 
about. First, the CCP would kill any baby after one. Now they 
kill any baby after two.''
    It appears, therefore, that China plans to maintain its 
iron grip over the wombs of women. The Chinese Communist Party 
will continue to intrude into the bedrooms and between the 
sheets of the people of China, requiring an arduous process to 
get a birth permit, a system of paid informants and ultrasound 
checks to make sure that a woman's IUD is still in place.
    Women's Rights Without Frontiers has a network of field 
workers in one area of rural China, and I have been in 
communication with the head of that network over the weekend. I 
want to report to you from our network on the ground in China 
what the response is in rural China, in our area, to this two-
child policy.
    And the response is that it is no big deal whatsoever, and 
it is not going to resolve the problems in the countryside of 
China.
    The main reason for this is because of the continued threat 
of forced sterilization, so that if a woman has a son, she is 
not likely then to get pregnant again, because she has her son. 
And if she has a second child, she is going to be forcibly 
sterilized. These forced sterilizations not only ruin a woman's 
reproductive health. They ruin a woman's general health as 
well.
    According to my network, a woman--before she is sterilized, 
women as well as men do hard labor on the farms. After they are 
sterilized, a woman cannot even pump water out of the well. And 
this lasts forever. The woman is permanently disabled from 
doing hard farm labor, and this is a huge, catastrophic event 
for her family and the villages.
    Especially a woman whose first child is a girl is going to 
feel that she has to hide her second pregnancy, because if it 
is a boy, she is going to be forcibly sterilized after giving 
birth. But even if it is another girl, she does not want the 
authorities to know about this because, number one, she will be 
forcibly sterilized if she gives birth to this girl, or when 
she gives birth to the girl, and number two, she wants to 
preserve the ability to have a boy.
    So these second daughters are either aborted--that is what 
happens a lot of the time--or abandoned, or hidden so that they 
have no hukou, so that the woman can then give birth, have a 
third pregnancy if she has two girls.
    Hukou in our area is only given to a second child after the 
mother has submitted to sterilization. So the forced abortions 
are continuing under the new two-child policy, because women 
who are pregnant now, who have gotten pregnant before the new 
two-child policy takes effect, if it does, in fact, take 
effect, are still considered to be illegally pregnant; and we 
are going to be hearing from Sarah Huang, who is in precisely 
that situation.
    According to our network, if a woman is caught illegally 
pregnant and cannot pay the fine, she is still going to be 
forcibly aborted, as was the case under the one-child policy.
    According to the president of a local hospital and a family 
planning official contacted by our network, if a woman runs 
away because she knows that she is illegally pregnant and she 
is caught, she absolutely will be forcibly aborted. She will 
not be given any opportunity to pay a fine.
    In our village, whether or not a woman is actually forcibly 
aborted or given the opportunity to pay the fine depends on a 
couple of factors. One is, How powerful is the woman? Does she 
have any resources? Poor women, women whose families are not 
connected to the Chinese Communist Party, are much more likely 
to be forcibly aborted than a woman of means or a woman whose 
family members work for the Party.
    And similarly, the enforcement of the one-child policy is 
extremely arbitrary, and it really depends on who the family 
planning official is that shows up at your door. There are 
people who will be merciful and give the woman an opportunity 
to pay a fine and there are people who are merciless and will 
not give the opportunity to pay a fine.
    Women in our villages have resorted to desperate measures 
to avoid a forced abortion when faced with an illegal 
pregnancy.
    Chairman Smith. Pardon me. Ms. Littlejohn?
    Ms. Littlejohn. Yes.
    Chairman Smith. There are seven votes on the floor. We are 
at zero right now for the first one--we are at least 30 seconds 
to go. We will take a brief recess, and I apologize to our 
witnesses and to people who have come out, but we will resume 
as soon as those votes are over.
    If one or two of our Senators, because we understand a few 
are on their way, they will resume the hearing and then we will 
just pick it up when we----
    Ms. Littlejohn. Okay.
    Chairman Smith. Thank you.
    [Whereupon at 10:30 a.m. the hearing was recessed.]

                       AFTER RECESS [11:17 A.M.]

    Ms. Littlejohn. Okay, so you want me to continue now?
    Senator Daines. You know, we are going to keep moving 
forward, yeah, so I will chair here until the House Members 
come back. I came over from the Senate side here.
    Ms. Littlejohn. Thank you so much.
    Senator Daines. Absolutely. So, I am Senator Steve Daines 
from the State of Montana.
    Ms. Littlejohn. It is a pleasure to meet you----
    Senator Daines. No, very glad to have you here. I lived in 
China for five years, working for Procter & Gamble, back in the 
1990s. So I had two children born in Hong Kong and have a lot 
of interest in this subject and some experience of the 
underground there as well.
    So anyway, Ms. Littlejohn, continue.
    Ms. Littlejohn. Okay. So what I was talking about is 
Women's Rights Without Frontiers has a network of field workers 
in rural China, and I was talking about the reactions of women 
in rural China to the new two-child policy. And I was about to 
tell a story about how women get around the forced abortion 
that is still required under the two-child policy.
    I understand that the following situation is common in our 
area. Ai Bao, which is not her real name, is a second daughter. 
And when her mother found out that she was pregnant, she went 
into hiding because she did not have a birth permit.
    However, she was discovered, and so when the family 
planning police tried to forcibly abort her, what she did is 
she found another woman who was also illegally pregnant but who 
was an unwed mother. Unwed mothers are never given the 
opportunity to even pay a fine or anything.
    She paid that woman 2,000 yuan to have an abortion in her 
name so that she could then use that woman's abortion 
certificate and hand it to the family planning police. So once 
they had that abortion certificate, she went into hiding and 
was able to give birth to her second daughter.
    These are the kinds of desperate measures that people will 
take to avoid the forced abortion under the one-child policy.
    Also, instituting a two-child policy will not end 
gendercide in China. As people in this hearing no doubt know, 
there are approximately 37 million more men living in China 
than women, and that the birth ratio of men and women, or boys 
and girls, is about 117 boys born for every 100 girls born. 
This is not going to improve, in my opinion, under the two-
child policy, because of the specter of forced sterilization.
    Many women whose first child is a boy may choose not to 
bear a second child because of the expense of having children 
in China; and because, in our area, you cannot get hukou for 
the second child without a sterilization. And these women do 
not want to be sterilized because it breaks their health.
    Similarly, women whose first child is a girl are going to 
hide the second pregnancy, because if they give birth to 
another girl, they want to have the opportunity to have another 
pregnancy to have a boy. And also they do not want to be 
sterilized, because if you have a second girl, you will also be 
sterilized or else you will not get hukou.
    In addition, there is a technology that is potentially 
dangerous to girls that has found its way to China. It has 
recently been discovered that cell-free DNA can be found in the 
blood of a pregnant mother.
    And so they have developed this test called non-invasive 
prenatal testing. The ominous acronym for this is NIPT. And I 
could not help but think of ``nipped in the bud,'' because this 
is a new way to detect chromosomal abnormalities, and it can be 
used even as early as seven weeks. But people already are using 
it to determine the gender of a fetus. And I just worry that 
when brutal son-preference meets with non-invasive blood test 
technology, many, many millions are girls are going to be 
aborted.
    The hukou abuses continue. Our network reports that in our 
area, unless a woman is sterilized, her second child will be 
denied hukou. Without hukou, children are denied access to 
health care, education, and other public benefits.
    There has been recent talk about registering 13 million 
people who do not have hukou. The motive here appears to be an 
attempt to make the population look less unbalanced. But 
Women's Rights Without Frontiers demands the unconditional end 
of the hukou system as being inhumane.
    Eliminating hukou by itself, however, will not end 
gendercide unless it is accompanied by the elimination of the 
forced sterilization that still occurs after the second 
pregnancy.
    Women will not register a second daughter for hukou if, by 
doing so, they are going to be giving up the chance to have a 
son.
    So some have publicly wondered what will happen to the army 
of family planning officials now that China has ``abolished'' 
the one-child policy. This question in itself is overly 
optimistic. The two-child policy remains just as coercive as 
the former one-child policy. This infrastructure of coercion 
can be turned to crush dissent in any area.
    There is growing unrest inside China. Internal Chinese law 
enforcement data on so-called mass incidents indicates that 
China has seen a sustained, rapid increase in these incidents 
from 8,700 in 1993 to nearly 60,000 in 2003 to more than 
120,000 in 2008.
    Meanwhile, there are as many as 1 million family planning 
officials in China. This 1 million army, if it were a standing 
army, would tie with North Korea as being the sixth-largest 
standing army in the world.
    Given the unrest that is happening in China, does the army 
of family planning officials, does the Chinese Communist Party 
regard this as being necessary to keep down social unrest in 
China? Therefore, I believe that the Chinese Communist Party 
will never relinquish coercive population control.
    As fully explained in my congressional testimony of April 
30 of this year, I believe that the Chinese Communist Party 
might slowly open up the one-child policy, but they will never 
abandon coercive birth control because, number one, it enables 
them to maintain their grip on power through terror. It is 
social control masquerading as population control.
    Number two, coercive population control is a lucrative 
profit center, bringing in as much as $314 billion in fines 
since its inception.
    Number three, it provides an infrastructure of coercion 
that can be turned to crush dissent of any sort.
    And number four, it ruptures relationships of trust so that 
people cannot organize--because if you do not know who you can 
trust, you cannot organize for democracy.
    Sending out the message that China has abandoned its one-
child policy is detrimental to sincere efforts to stop forced 
abortion and gendercide in China because this message implies 
that the one-child policy is no longer a problem.
    In a world laden with compassion fatigue, people are 
relieved to cross China's one-child policy off their list of 
things to worry about, but we must not do that. Let us not 
abandon the women and the babies of China who continue to face 
forced abortion and forced sterilization and the girls who 
continue to face sex-selective abortion and abandonment under 
the new two-child policy.
    The one-child policy does not need to be modified. It needs 
to be abolished.
    Thank you.
    Senator Daines. I think we are going to go next to Ms. 
Huang, actually.
    [Pause.]
    Ms. Huang, you have to turn on your microphone.
    [The prepared statement of Ms. Littlejohn appears in the 
appendix.]

       STATEMENT OF SARAH HUANG, WOMEN'S RIGHTS ADVOCATE

    Ms. Huang [through interpreter]. Greetings, Honorable 
Chairman, Congressman Smith, Cochairman Senator Rubio, members 
of the CECC and distinguished guests. I am honored to have this 
opportunity to share my painful story.
    And I am grateful for this country, which has provided the 
necessary leadership in promoting human rights throughout the 
world, including working with the international community to 
persuade countries like China to adhere to international law 
and universal values on the protection of human dignity.
    Since the beginning of this nation, the United States has 
had a great history of leading the way in protecting human 
rights from the Declaration of Independence, which states that 
all men are created equal, that they are endowed by their 
Creator with certain unalienable rights, that among these are 
life, liberty, and the pursuit of happiness.
    President Obama has even spoken on the importance of 
answering the responsibility to speak up for those who cannot 
speak for themselves. Speaking up for others is one of my core 
values and one of many reasons why my husband and I continually 
open our hearts and home to the vulnerable and the voiceless.
    America, you have a choice. You can choose to speak up for 
the innocent, or stay silent. In my country, women are told 
they cannot speak out for their own bodies or for the children 
in the womb.
    In China, the struggle is not about pro-life or pro-choice, 
but about enduring torture or enduring strict punishment for 
disobeying. It is because of this that my phones ring 
constantly by the very few women that are courageous enough to 
defy the policy, to keep the child.
    These strangers frequently call me and say, ``I am pregnant 
and I have no options. I was told you can help me to keep my 
child.'' Of course, I try to help them all. Unfortunately, I am 
just as busy now with the Chinese Government's newly announced 
two-child policy as I was with the infamous one-child policy.
    Although there is an expert here today that will share--in 
more detail, please allow me to share briefly about the 
statistics.
    Chinese Government data reports that 30 million abortions 
are performed each year for an average rate of 35,000 per day. 
I personally believe the number is much higher. Because these 
official statistics only include hospitals that report their 
figures and the most abortions occur in unauthorized ``black 
clinics'' or at home.
    One reason why we think the number of abortions is 
considerably higher is because China is a shame-based culture. 
Chinese families do not want the attention of going to an 
official abortion clinic where they are required to register or 
show their I.D.
    As a result, most Chinese women who receive abortions 
choose to do it anonymously at the unregistered clinics known 
as ``black clinics.''
    Now I am going to briefly share my pregnancy story. My 
husband and I have wanted a second child for many years, so 
after finding out we were pregnant, we were of course very 
happy, especially when we heard that the one-child policy has 
been abolished and thought that our problems had been solved. 
We even heard in the news that everyone in China can now have a 
second child.
    Although we were skeptical, our immediate reaction was to 
rejoice, as this would mean a lot more babies born to families 
that wanted to keep them. We thought our problems were solved, 
until we heard from my husband's employer, the Chinese 
Government, that abortion would be mandatory until we present 
the proof that I had this IUD installed.
    So my husband was threatened that if I failed to present 
this proof that I had the IUD installed, then I would be 
subject to forced abortion. According to my experience and 
observation, this newly announced two-child policy is not 
applicable to every family and every couple, because this 
policy has not been completely implemented yet.
    For example, it does not apply to my case, nor to those 
families who are currently in hiding in China. The new 
announced two-child policy is not completely bad. A majority, 
but not all families, will meet the criteria and be allowed to 
keep their second child. However, clearly China's change to a 
two-child policy is not enough.
    Chinese families who attempt to have two children could 
still be subject to coercive and intrusive forms of 
contraception and forced abortions, which amount to torture.
    Another common myth is that China's brutal Family Planning 
Bureau has been dissolved, thus removing all of its corrupt 
practices and acts of impunity. But it is not true; it just has 
simply been renamed.
    Although I do not doubt there may be some positive changes, 
the truth is that the same Party members that worked for the 
Family Planning Bureau are now employed by the National Health 
and Family Planning Bureau. This organization still maintains a 
strict quota-based system that drives employees to abuse others 
in order to protect their jobs.
    Another observation relates to the ``black clinics.'' They 
are unregistered abortion clinics that typically have illegal 
ultrasound machines that tell expectant parents the gender of 
the child.
    These clinics offer a variety of services from gender 
identification to late-term abortions, with all services 
offered on an anonymous basis.
    Now I do believe that things will change, but how many must 
suffer before that happens? I hope that many years from now our 
children's children will remember us as the generation that did 
something about this great tragedy. Because we are the ones who 
are aware of what is happening in China. We have this 
responsibility to take action.
    I will also pray that the day will come where China will no 
longer coercively control women's wombs. I believe this is one 
of the most tragic events of the modern world's history. Can 
you imagine the history books revealing that the Chinese 
Government, through their one- and then two-child policies 
having killed more babies and brutalized more women than such 
events as the Plague or both World Wars combined?
    These tragedies are happening, and if we do not do 
something, I ask who will? If we do not say something, again, 
who will?
    Thank you.
    Senator Daines. Thank you for your testimony, Ms. Huang.
    Ms. Li.
    [The prepared statement of Ms. Huang appears in the 
appendix.]

    STATEMENT OF JENNIFER LI, COFOUNDER, CHINA LIFE ALLIANCE

    Ms. Li. Senator Daines and members of the Commission, I am 
honored to be here today and to speak with you from my personal 
experience of China and the new two-child policy.
    I moved to China seven years ago with my husband, and I was 
eager to learn the language and culture of this amazing land. 
We knew at the time that a one-child policy existed, but were 
unaware of the significance of it. We also knew that boys were 
the more desirable gender.
    And as time passed, we began to look around us, and we 
noticed on the way to school in the morning, on the backs of 
parents' bicycles, on the backs of grandparents' bicycles, two 
boys for every girl. We would see children exercising in the 
schoolyards and we noticed the same thing--boys in great number 
and much fewer girls.
    We began to ask questions of each other and of our friends. 
Where are all the girls? Where are the children with 
disabilities? Do these families want more than one child, or 
are they satisfied?
    As our language skills increased and as we began to make 
friends among locals, we learned couples were being pressured 
in draconian ways to manage their family size through 
abortions. It was hard to believe, and we did not want to, but 
it was real.
    Despite it being illegal to tell parents the gender of an 
unborn baby, thousands of black-market abortion clinics that 
Sarah referred to are enabling parents to have gender-selective 
abortions every day.
    As to the question, do they want more than one child, 
hundreds of Chinese people have answered me this question 
personally and said yes, I wish I could have as many children 
as I want, but I cannot.
    Every single day, as I would walk the streets with my 
children, I would be told how lucky I was to have many 
children. And people would bemoan to me the fact that their 
government would only let them have one.
    We can call it a one-child policy; we can call it a two-
child policy. We can call it whatever we want, but we cannot 
deny the reality that China's population control policy leaves 
men and women across the country without basic human 
reproductive rights and leaves millions of babies dead at the 
hand of anxious relatives, sold on the black market, or dead on 
abortion tables.
    As our awareness of this heartbreak grew, so did our desire 
to help. It started off as helping a few friends who were 
pregnant. We realized quickly that this was not pro-life work 
as we understood it in America.
    In America, when volunteering at U.S. pregnancy resource 
centers, I was taught to tell people that they had options. In 
China, there were no options.
    As we embraced our friends, our burden grew and we, along 
with a small group of Chinese friends, started a coalition for 
the purpose of helping pregnant women who wanted to keep their 
babies.
    After starting a variety of baby-saving initiatives and 
enduring great hardships, we partnered with churches and 
nonprofit groups to form the China Life Alliance, a coalition 
of Chinese citizens who rescue thousands of babies each year 
before they are abandoned, sold, or killed.
    We do this through education, through safe houses, through 
legal aid, through financial aid, and whatever other creative 
solutions our team comes up with.
    Over the years, we have seen unimaginable horrors. This has 
been the greatest and most difficult cause of our life. I would 
like to share with you two stories, before we are through, of 
my close personal friends. Though their stories happened under 
what we call the one-child policy, under this new child policy, 
their outcome would not be changed at all.
    First, I want to talk to you about Ivy. Ivy was a single 
college student when she discovered that she was pregnant by 
her married professor. The consequences for Ivy, when she chose 
to give birth to her daughter and not abort or abandon her, 
were severe. Ivy was expelled from college and her daughter was 
denied a hukou, or birth certificate, which meant she could 
never go to school, never be treated at a hospital or travel.
    Ivy is one of the most courageous women I know. Because she 
was a single mother, Ivy could not get a government-sanctioned 
job. She worked for a pittance and found under-the-table work 
to do. She had no support and no man would marry her because 
under the one-child policy, he would not be able to have a 
child of his own with her.
    Her daughter is now a vivacious 16-year-old with dreams of 
attending Harvard. And Ivy works with the China Life Alliance 
helping other women who find themselves single and pregnant.
    My second story is about Grace, who had a daughter born 
with Down Syndrome. This story is felt deeply by me because I 
am a mother of a child with a disability.
    Population control puts dramatic pressure on parents of 
disabled children. Grace is from a minority people group which, 
owing to their rural situation, is allowed to have two 
children.
    The pressure to have both children be healthy and male in 
order to earn income for the family proved to be too much for 
their family. When the baby was five days old and still 
receiving oxygen from a tank, her grandmother locked Grace out 
of the house and attempted to kill the baby by unplugging her 
oxygen for eight hours.
    Miraculously, the baby survived and Grace called my Chinese 
friend and me and we helped them think through options and 
reasons to save their baby's life. Repeatedly, as we sat there 
with the grandparents and the parents, we heard them say, it 
would not be a big deal if we could just have another child. 
But because this one imperfect child counted as part of their 
quota, the family economics made the choice to keep her 
impossible.
    It is challenging for me to stay composed when I share 
these stories. I see their tears and I feel their fears. I hold 
their hands and I hold their story in my heart. I want the 
world to see the heartbreak that population control has brought 
to the people of beautiful China.
    But we rejoice for those who will now be able to have two 
children instead of one. I believe we must continue to speak up 
for the rights of the men, women, and children whose lives are 
so deeply affected by this policy and the attempts to control 
their reproductive rights.
    As we ask what we can do and how we can move forward, I 
would like to ask you to remember the stories of Ivy and Grace. 
Let us honor their courage and bring change that gives them 
hope.
    Senator Daines. Thanks for your testimony, Ms. Li.
    Mr. Mosher?
    [The prepared statement of Ms. Li appears in the appendix.]

 STATEMENT OF STEVEN W. MOSHER, PRESIDENT, POPULATION RESEARCH 
                           INSTITUTE

    Mr. Mosher. I would like to start by thanking the members 
of the Congressional-Executive Commission on China for holding 
this important hearing and particularly for you, Senator 
Daines, for chairing it at this point.
    This is a hearing that is near and dear to my heart, as it 
was to Jennifer's and in a sense, in almost the same way. I was 
at Stanford University in 1979 when China first allowed foreign 
researchers to come into that country, and I was the first 
American social scientist to live on the ground in China for a 
year and study rural life in China in 1979 and l980 when the 
one-child policy began.
    And it swept across the Chinese landscape like a terrible 
hurricane, sweeping up pregnant women, women who were three and 
six and nine months pregnant, telling them that their 
pregnancies were illegal--they had been legal, of course, a few 
weeks before, but the Party had now decreed otherwise--
arresting them for the crime of being pregnant, taking them 
away from their homes and families, locking them up in holding 
pens where they were subjected to morning-to-night propaganda 
sessions--brainwashing sessions we should probably call them--
until they were taken by force, by coercion, under escort to a 
local medical center where they were aborted. In some cases, 
the third trimester abortions were done by Caesarian section 
and babies were killed at birth.
    I was there for this entire process, and as far as I know, 
I think I am one of the only, or one of the few Western 
eyewitnesses to the way the program is actually carried out in 
China, with the identification of pregnant women as criminals, 
with their arrest, with their imprisonment, and at the end of 
the day with their forced abortion and forced sterilization.
    So I was there at the beginning, and I would like to say 
that I am also here at the close, at the end of this barbaric 
policy, but unfortunately, that would not be true.
    It is true that the Chinese Communist Party has now decided 
that all Chinese couples will be allowed to have a second 
child--or will soon be allowed, once they jump through the 
proper legislative hoops at their rubber-stamp parliament--will 
soon be allowed to have a second child, rather than being 
restricted to only one child, as some are now.
    But foreign observers who have greeted the apparent end of 
the one-child policy with euphoria should understand that this 
does not represent a new birth of reproductive freedom in 
China.
    Those who have publicly commended the Chinese leadership as 
if they had completely decided to abolish a policy of limiting 
childbearing in China that has cost so much physical, 
emotional, and spiritual damage to the families of the nation, 
have got it wrong, because the Chinese leadership has done no 
such thing.
    China is not backing away from draconian birth limits, 
because Communist Party leader Xi Jinping has suddenly 
developed a conscience. There is no evidence that anyone in the 
senior leadership has ever lost any sleep over the hundreds of 
millions of unborn children and newborn children their policy 
has killed over the past 35 years, since I was first in China.
    There is no evidence that any of them have shed a tear for 
the hundreds of millions of young mothers forcibly aborted and 
sterilized over this same period, or had a moment's regret for 
China's tens of millions of missing baby girls.
    What does keep them up at night, and what has prompted this 
modification of the planned birth policy, is the dawning 
realization that their misguided policy is crippling China's 
economic growth.
    For at least the past two years, China's workforce has 
actually been shrinking. That is a pretty amazing statistic in 
the most populous country in the world. Last year, the 
potential workforce fell by a reported 3.71 million, almost 4 
million workers, a significant number even by China's 
standards.
    At the same time, the over-60 population is exploding. 
According to U.N. projections, it is expected to more than 
double by 2050, reaching an astonishing 437 million people over 
the age of retirement.
    China is growing old before it grows rich, and the strains 
on China's nascent pension programs will be enormous. And we 
could, Mr. Chairman, imagine a day when the Chinese Government 
also declares that the elderly are superfluous and need to be 
encouraged to prematurely end their lives. That, I think, would 
also fall under the aegis of the population control program.
    There is another reason, even more fundamental, why I am 
not celebrating the end of the one-child policy. Regardless of 
whether Party leaders allow Chinese couples to have one, two or 
even three children, the underlying policy has not, and 
probably will not, change.
    Now, Dr. Eberstadt, Reggie Littlejohn, Jennifer Li, and 
Sarah Huang have all made this point. But let me just underline 
the fact that the underlying policy is the policy of planned 
birth--in Chinese.
    And under the policy of planned birth, the Chinese state, 
rather than the Chinese people, decide how many children ought 
to be born in China each year, and it was none other than 
Chairman Mao himself, the founder of the People's Republic of 
China, who first put the planned-birth policy in place.
    The great helmsman, as he was known, decided way back in 
the 1950s that the five-year economic plans being drawn up by 
the Chinese Communist Party should control not just production, 
but reproduction, and they have, ever since.
    That is why the shift to a two-child policy is occurring as 
part of the next five-year plan, approved at the latest meeting 
of the Chinese Communist Party Central Committee. The official 
communique about that meeting, which was released by the 
Xinhua--the Xinhua News Agency, on October 29, made clear that 
in the 13th five-year economic plan, China's leaders had 
decided to ramp up both economic production and reproduction.
    The communique itself is written in the almost-unreadable 
pastiche of slogans that the Party resorts to on such 
occasions, but I translate it as, ``promote the balanced 
development of the population, resolutely carry out the basic 
policy of planned births, thoroughly implement the policy of 
each couple birthing two children, actively begin to address 
the aging of the population.''
    So the basic policy of planned births has not changed. What 
has changed is the state's desire to increase reproduction, and 
it will, by one means or another, increase reproduction.
    Of course, it is already too late to rebalance the 
population--or to stop the aging of the population. That is 
already baked into the demographic cake. And it is doubtful 
whether or not the new policy will have much of an impact 
immediately on childbearing, unless the state steps in with 
more--measures.
    When the one-child policy has been relaxed for certain 
segments of the population in the past, first for rural couples 
whose first child was a girl, then for all rural couples, then 
for urban couples where both husband and wife were only 
children. The results have been underwhelming.
    The last tweaking of the planned birth policy occurred just 
two years ago. It was particularly disappointing to Party 
leaders hoping for a baby boomlet. The government had announced 
that couples in which only one spouse was an only child would 
be allowed two children, and they planned for 20 million births 
in the year 2014.
    Actually, only 16.9 million babies materialized. Babies do 
not materialize, of course; they are conceived, but in a 
material society like China, we can appropriately use that 
term. Out of the 11 million couples eligible to have a second 
child, only 1.45 million actually applied for a permit. So the 
response was something over 10 percent of the population.
    These figures suggest that at least among China's urban 
population--of course, more and more people are pouring into 
urban centers where economic opportunities are available--
couples are not eagerly waiting to fill the maternity wards.
    I think 40 years of anti-natal, anti-child propaganda has 
left its mark on the Chinese psyche. The Chinese Communist 
Party, because of 35 years of anti-people propaganda, has 
succeeded in largely dismantling the most family-centered 
culture, one of the most family-centered cultures, the planet 
has ever seen.
    Few of those people who grew up under the one-child policy, 
who are now the second generation of people to grow up under 
the one-child policy--their parents were only children and in 
many cases, their grandparents were only children--they would 
rather spend their limited incomes on themselves than, say, 
disposable diapers.
    So what will the Chinese leaders do if, as now appears 
likely, the Chinese people do not procreate up to plan? At 
present, couples are permitted to have a second child, but I do 
not expect the matter to end there.
    Soon they will be encouraged, then they will be motivated, 
and finally one can imagine that they might one day be ordered 
to bear children. I could at this point quote Dr. Eberstadt 
quoting me, but I will refrain from doing that. [Laughter.]
    If this prediction sounds a little overwrought, consider 
what China has been doing to young pregnant mothers for the 
better part of two generations now. They have been visited by 
family planning officials, planned birth officials, who 
encourage them to get abortions, who then motivate them and, at 
the end of the day, ultimately take them under escort to have 
abortions.
    You could see how young pregnant mothers who would be 
encouraged to bear children would be subject to periodic pelvic 
examinations to make sure they have not secretly gotten an 
abortion, and punished if they refuse to bear the children the 
state wants them to bear.
    At the outset of the one-child policy--in fact, when I was 
in China--then paramount leader Deng Xiaoping ordered his 
officials to, ``use whatever means you must'' to force the 
birthrate down. He went on to say, ``with the support of the 
Chinese Communist Party, you have nothing to fear.''
    Chinese officials took him at his word and women were 
rounded up en masse to be aborted, sterilized, and 
contracepted. Even today these abuses continue, and they will 
continue, because as far as I know, Central Committee Directive 
Number 7 of 1983 has not been rescinded.
    It requires women who have had two children to be 
sterilized, as Reggie pointed out. It requires women pregnant 
with out-of-plan births to be aborted, which will be the fate 
of women who are pregnant with a third child. And it requires 
women who have not yet been given permission to have children 
to be contracepted.
    That will stay in place. It will also continue to be the 
case that single women in China will not be allowed to have 
children, because all of their pregnancies are ipso facto out-
of-plan births.
    So the same Party officials who have been responsible for 
decades of forced abortions and sterilizations would have no 
qualms about enforcing mandatory pregnancy.
    If the higher birth rate called for by China's new planned 
birth policy cannot be achieved voluntarily, I think 
childbearing in China may one day become mandatory.
    What should China do? Well, China's leaders should, number 
one, abandon the planned birth policy altogether, the policy 
that has been in place since the 1950s. They should allow 
couples to freely choose the number and spacing of their 
children and have as many or as few as they desire.
    Number two, China's leaders should respect the consensus of 
the international community as expressed in the policy of the 
U.N. Population Fund. The U.N. Population Fund affirms that 
couples enjoy the right to reasonably decide the number and 
spacing of their children, something that China denies its own 
people.
    Number three, the National Health and Planned Birth 
Commission, created in 2013 from the merger of the Ministry of 
Health and National Population and Planned Birth Commission 
should revert to its former role as the Ministry of Health, and 
its planned birth arm abolished.
    Only if these reforms are undertaken will forced abortions 
and forced sterilizations, which have characterized China's 
planned birth policy from the beginning, come to an end.
    Now, is this likely to happen? Well, sadly, no. I think the 
totalitarian impulse that drives these policies is far too 
strong in China. From a more practical, political point of 
view, the planned birth policy employs far too many people. It 
generates far too much in the way of profits to corrupt 
officials through the fines for having illegal children. And it 
is too closely identified with the Chinese Communist Party to 
ever be lightly abandoned.
    The Chinese Communist Party has invested a lot of its 
legitimacy in the claim that it and only it knows how to manage 
the Chinese economy, and that reproduction is part of managing 
the Chinese economy. Were it to abandon the planned birth 
policy altogether, it would be admitting that its management 
has been a failure.
    It has, of course, been a failure.
    Thank you very much.
    [The prepared statement of Mr. Mosher appears in the 
appendix.]
    Senator Daines. Thank you for your testimony.
    I first want to submit for the record Senator Rubio's 
comments, who is the Cochair of this Commission. So ordered.
    Let me start off, as someone who spent five-and-a-half 
years in China, living there back in the 1990s, I was in the 
private sector at the time, expatriate, working for a Fortune 
20 company. And we were based in Guangzhou, but traveled 
extensively around the country. So I have certainly had a 
chance to witness both the positive as well as some of the 
concerning developments of the region.
    I remember having a set of twin baby girls dropped off at 
our doorstep one morning when my wife called me at work, from a 
desperate mother in a rural area. And they turned to an 
American family for help. And I can tell you, through a long, 
arduous process, two little baby girls are now two thriving 
teenagers here, living in the United States, adopted by a 
family.
    I remember working with one of my employees whose wife had 
become pregnant without permission, and dealing with the family 
planning police, but successfully resolving it to protect that 
little baby girl that they now have.
    And Ms. Li, I do remember, too, the days of when we had two 
children when we moved over. Then we had two more born in Hong 
Kong, so we were a very lucky family, with four children. And 
the comments we too would have quietly with Chinese families 
who were yearning that they could have perhaps more than one 
child as well.
    So this is more than just a hearing for me. This is also an 
experience that we had as a family and something I care very, 
very deeply about.
    There was a quote in Ms. Huang's written testimony that 
said--she was quoting the famous William Wilberforce. And I 
quote her testimony as she quoted Wilberforce when he said, 
``You may choose to look the other way, but you can never say 
again that you did not know.''
    Mr. Eberstadt, according to the Commission's annual report, 
the initial relaxation of the one-child policy that allowed 
couples to have two children, if one of the parents was an only 
child, only results in about a quarter of the estimated 
increase in births that was expected.
    What reason, if any, is there to believe that a two-child 
policy will result in a different outcome and have a 
significant impact on the demographic crisis currently facing 
China?
    Mr. Eberstadt. Well, Senator, I think you have put your 
finger exactly on the question that Chinese authorities must be 
thinking about today. For us social scientists who are 
interested in looking at evidence and empirical results, rather 
than government ideology, I think we would have to say that the 
chances that this will have a substantially different impact 
from the earlier tinkering, the slight recalibration, would be 
very, very small.
    And the reason for this is that the best single predictor 
that we have as social scientists for fertility outcomes under 
voluntary family planning is the desires of parents. If we look 
all around the world, the best single indicator--better than 
income, better than education, better than urbanization or 
infant mortality or access to contraceptives--the best single 
indicator is desired family size.
    And if this slight recalibration does absolutely nothing to 
change desired family size, as we would expect it would not, I 
think we would have to presume that the impact will be minimal.
    As Steven Mosher has already mentioned, moreover, China's 
demographic trends for the next generation are basically 
already baked into the cake.
    Thank you very much.
    Senator Daines. Why do you not think they would perhaps 
then rethink and abolish any restrictions on children at all, 
in terms of numbers?
    Mr. Eberstadt. You know, my demographer friends in China 
wonder about that also. And as I reflect upon it, my own 
hypothesis would be that the Chinese Government does not want 
to relinquish this instrument of social control, precisely 
because it is an instrument of social control.
    It may not have the demographic power to effect the sorts 
of demographic impacts that population planners would like, but 
it is still a very powerful tool of social control 
nonetheless--along with other very powerful tools of social 
control that the government wishes to maintain.
    Senator Daines. Thank you.
    Ms. Littlejohn, do you want to add to that? I have a 
question for you as well.
    Ms. Littlejohn. Yes, Senator. Your question: Why does China 
not completely abandon all coercive population control, given 
the fact that they have backed themselves into a horrific 
demographic disaster in terms of the gender imbalance and the 
old and young population imbalance.
    That was actually the subject of my entire testimony on 
April 30, 2015. And the fact that it makes no demographic sense 
whatsoever for China to continue the one-child policy begs the 
question of, Why are they continuing it? The one-child policy 
started in the 1979-1980 timeframe. Chairman Mao had said 
people are the strength of China. And he was encouraging women 
to have more children.
    The average fertility rate at that time was about six kids 
per woman and now, under the one-child policy, has gone down to 
maybe 1.3 to 1.6 kids per woman, depending on who you ask.
    And that enormous population explosion under the Mao era is 
now heading toward retirement. I believe that in the beginning, 
when Deng Xiaoping instituted the one-child policy, that 
population control was the point of the policy, and the terror 
of forced abortion was a byproduct.
    I believe now that the reason that it makes no sense to 
continue the one-child policy is that terror has now become the 
purpose of the policy. And the Chinese Communist Party is a 
brutal, totalitarian regime and they are using the one-child 
policy literally to terrorize people through forced abortion, 
which is a form of torture.
    Senator Daines. Let me ask a question about gendercide. Do 
you believe the two-child policy will reduce gendercide?
    Ms. Littlejohn. No, and the reason I believe that is 
because of the sterilization problem. So right now, in our area 
of the countryside and also, as Steve Mosher has mentioned, if 
a person has had a second child, they will be sterilized.
    So if a woman has had a son, then she may very well opt not 
to have that second child, because she doesn't want to become 
sterilized, which will disable her. And then--so that girl will 
not be born. That family has a boy and then the second child 
will not be born.
    Then in terms of people who have a girl first, right now in 
the countryside there is a two-child policy for people whose 
first child is a girl, they can have a second child. But people 
generally regard that as being their last chance to have a boy, 
and they selectively abort and selectively abandon those second 
daughters, and that will still happen under a two-child policy.
    So I really do not expect the numbers to change much, if at 
all, of gendercide under the two-child policy.
    Senator Daines. Thank you.
    My House colleagues have now returned from the battle on 
the floor, and so thank you for the opportunity to chair 
temporarily here. I will turn it back to Chairman Smith.
    Chairman Smith. Thank you so you much, Senator Daines, and 
thank you for your insights and your leadership on these 
issues.
    Senator Daines. Thank you. I appreciate it.
    Chairman Smith. I would like to yield to Commissioner 
Pittenger.
    Representative Pittenger. Thank you, Mr. Chairman, and 
thank each of you again for your testimony today. And how 
heart-rending is it to us to see your real commitment in these 
life-saving measures.
    Ms. Li, I would just like to ask you, without suffering 
through details, describe to me the experience of a pregnant 
woman coming to you seeking help, and the pressures that she is 
receiving from family and from the government. And how do you 
deal with these requests? And just to give us a more personal 
view of this?
    Ms. Li. Okay, that is an excellent question. The China Life 
Alliance is, as I mentinoed before, almost all Chinese 
citizens. So typically, I will not interact with a desperate 
mother in the first stage of our contact.
    Usually she will speak to someone like I mentioned, Ivy or 
possibly one of the other women that works with us. And they 
will usually establish a meeting right off the bat, and it is 
actually very complex. Because this issue is so fraught with 
political danger, we use technology to avoid being tracked. 
Most of the workers use multiple telephones and multiple ways 
of communicating, and that is how they set up their initial 
contact with desperate parents.
    Would you like more?
    Representative Pittenger. Well, it is just the pressures 
that she is under, and just----
    Ms. Li. A lot of the pressure, actually when someone is 
being pressured to undergo a forced abortion, it is actually 
oftentimes the pressure from family or from their employer that 
will prove to be too much for a person.
    A lot of women, they may be told that they need to have an 
abortion, but they will not go through with it until their 
employer begins to threaten them. Oftentimes a male employer 
will tell them, unless you show me the scans, unless you show 
me proof of your IUD, these different kinds of things, I will 
fire you.
    And oftentimes, their home loans or their rental contracts 
are connected with their job, and what a lot of these women we 
deal with face is losing not just their job, but their home. 
Oftentimes their car, many different aspects of their life are 
challenged.
    Representative Pittenger. Thank you.
    Ms. Huang? I guess she can hear me----
    What about women like yourself who are pregnant with a 
second child before this policy has been fully implemented. Is 
there any sense the government is being more lenient with you 
and with other women during this transition phase?
    [Pause for translation.]
    Could you speak louder, please?
    Ms. Huang. I believe so.
    Representative Pittenger. Okay. Mr. Mosher, despite the 
looming demographic crisis and calls from demographic experts 
to scrap the one-child policy, the Chinese Government has 
instead chosen to make incremental changes over the years.
    What do you think the rationale is and how do you abolish 
this entirely? Perhaps you spoke to this some, but I was not in 
the room.
    Mr. Mosher. Well, the underlying rationale is that the 
Party has the right under a decision made by Chairman Mao 
Zedong back in the early 1950s when this was under debate in 
the top reaches of the Chinese Communist Party.
    The Party has the right and the authority to control 
reproduction under a state plan in the same way that it 
controls production. So that in the same way the five-year 
plan, which is passed, in general terms, by the Central 
Committee of the Chinese Communist Party, and then 
operationalized and concretized at various levels of the 
government by the different ministries.
    In the same way, that plan will detail how many tons of 
steel or how many kilowatts of energy that are to be produced 
in China. It will also specify how many children are to be 
reproduced in China. This has been part and parcel of economic 
planning in China since almost the very beginning.
    So for the Chinese Communist Party to abandon this now 
would be, first and foremost, an admission that perhaps to the 
Chinese people it had no right in the first place to seize 
authority over this area.
    Second, it would be a tacit admission that it had gotten it 
wrong in imposing a one-child policy, which is now playing out 
to the detriment of economic advances in China and, of course, 
has resulted in the destruction of the family.
    And since the Chinese Communist Party's legitimacy is very 
closely tied up to its most important policies, of which 
planned birth is one, it will not lightly abandon this policy, 
because it might very well call its legitimacy into question, 
in the eyes of the Chinese people.
    So I do not see them relinquishing control over 
reproduction--I do not see that as very likely at all. It would 
take a fundamental transformation, I think, of the political 
system in China.
    Representative Pittenger. Is there anything we can do in 
U.S. policy to encourage this transition of this course of 
policy? And what do you encourage Chinese families to do to 
value their own--the Chinese people to value baby girls as 
much.
    Mr. Mosher. Well, I have traveled in China extensively. I 
have visited villages where there are many, many large 
families, families where there are equal numbers of little boys 
and little girls. Those villages are Christian villages or 
Catholic villages where there has been missionary effort made 
in China since the Ming Dynasty hundreds of years ago, and 
where they, in solidarity, protect their women from the 
extortions and from the coercion of the planned birth police. 
In most of China, of course, that kind of situation is not to 
be found.
    We can certainly encourage the Chinese Government to 
respect human rights, to respect international norms when it 
comes to the basic right of families to decide for themselves 
the number and spacing of their children.
    And we have been--well, I have been involved in this fight 
for 35 years, since I was present when the one-child policy 
began in China. I take any relaxation of the policy as a step 
in the right direction, but the underlying problem, the problem 
that will not easily go away, is the problem of the planned 
birth policy itself, that the state has decreed that it, not 
Chinese couples, not Chinese individuals, have the right to 
determine how many children will be born in the country.
    Representative Pittenger. Thank you, Mr. Chairman. I yield 
back.
    Chairman Smith. Thank you.
    Mr. Pitts?
    Representative Pitts. I am just here to listen. Thank you.
    Chairman Smith. Thank you.
    I will just--I know many of the questions have been already 
asked, but just a couple of questions that I would like to 
point out.
    To Sarah, if I could ask you and maybe others might want to 
respond to it, you have said that a Chinese mother's womb is 
one of the most dangerous places to be, and most do not get out 
alive.
    You point out that when you add up the numbers, the number 
of murdered children, including and especially murdered girl 
children, is more than both World Wars combined, which is 
astonishing--if a foreign power were to impose upon the Chinese 
population this kind of brutality and carnage, you can be sure 
that the Chinese Government would respond and defend its 
people.
    And yet in this case it is the perpetrator of those crimes 
against humanity. It is bizarre, and it certainly is a gross 
violation of human rights, to say the least.
    You also point out--and some of you have mentioned--the 
``black clinics'' where ultrasounds are used. Do you sense any 
sense on the part of the Chinese Government to rein in the use 
of ultrasound imaging to determine the gender of the child, 
which is really a search-and-destroy mission, as we know?
    Have there been prosecutions? Having been at this not as 
long as Steven Mosher, although he inspired all of our work on 
this from the very beginning, there is always the apologists 
who say things have changed.
    I will never forget a hearing that friends on the other 
side of the aisle held in the Foreign Affairs Committee in 
1985. And I was, like, the lone voice objecting that there was 
a great deal of hyperbole, that it was all over. The high tides 
were over; 1983 was a big and bad year and China had learned 
its lessons, and we had even a Foreign Service officer who said 
he traveled the length and breadth of China--figuratively, not 
literally--and he was reporting that all is well. And I find 
that astonishing, that time and time again people are ready to 
put a gloss on this and say things are fine.
    But specifically, prosecutions against these ``black 
clinics''; does China yet get it, that they have become the 
magnet for sex trafficking because of the dearth of women, 
brought about in part because of the forced abortion policy and 
the one-child overlay of all of that? If any of you want to 
respond to that, I would appreciate it.
    Yes, Ms. Li.
    Ms. Li. So I have personally been to those ``black 
clinics'' multiple times. I have gone with my husband and I 
have gone with Chinese friends, and I have asked questions. I 
have told them I was pregnant, asked how much it would cost to 
get an abortion.
    Also, our Chinese friends do that, whether we are with them 
or not, and there is no fear on the part of any operator in a 
``black abortion clinic'' that we have been to.
    They actually brag about their relationships with the 
government, with police officers. They tell us how many 
abortions they have performed for members of the government 
Party. Yeah, no fear at all. I have never heard of one being 
prosecuted in any way.
    Chairman Smith. On the issue of women's emotional health, I 
think one of the greatest overlooked areas here--not by you, 
but by the international community--is the post-traumatic 
stress, the horrific consequences of the one-child-per-couple 
policy on womens' psychological health.
    On one of my many trips to China, I remember meeting with 
state family planning officials, and the New York Times had 
just recently done a page-one story about a woman who was 
clinically depressed because of the forced abortions she had 
been compelled to undergo.
    And when I brought that--and I had the newspaper with me 
intact, the whole paper--I said, how do you respond to that? 
And they said, it is a big lie. The New York Times is making it 
all up. There is no consequences to this.
    When a member of the People's Congress was here leading a 
delegation, Madame Fu, I asked her about the 600 women 
purportedly who commit suicide every day, and a number of 
those, probably a large number, are attributable to the 
population control program, and raised all this with her.
    She says it was a lie. This was over at the Foreign Affairs 
Committee where we had this exchange. Said I was making up the 
statistics. So I said, ``Well, they are your statistics from 
the Beijing Centers for Disease Control, which seeks to 
parallel, I think, a lot of what our CDC does.'' And she 
abruptly ended the meeting, after she got the documentation, 
which was first contained in the country reports of human 
rights practices, the China Report put out by U.S. Department 
of State.
    I think this unrecognized psychological impact needs to be 
highlighted. Any of you would want to speak to what this is 
doing to the Chinese women in particular?
    Yes, Dr. Mosher.
    Mr. Mosher. When the policy began in--shortly after the 
policy began in 1980, there were suicides in the part of China 
where I lived, suicides committed by young women who had been 
forced to have an abortion. So it was clear to me from the 
outset that there was a direct correlation, a one-to-one 
relationship, between the forced abortion of young mothers who 
had conceived their children in love and intact marriages and 
were looking forward to their birth in a few weeks or months, 
and their sudden--their inability to protect the child they 
were carrying.
    And you think, it is not their fault. They were taken under 
duress. They were coerced into the forced abortion. But a 
mother--and the mothers here will acknowledge this is true--the 
mothers blame themselves anyway for their failure to protect 
their unborn children.
    One of the striking things about the suicide statistics out 
of China, you have already mentioned them in part, is that in 
every other country of the world, more men than women commit 
suicide. In every other country of the world, it is the 
elderly, middle aged and elderly, who predominantly end their 
lives.
    In China, it is precisely the opposite. It is young women, 
and it is young women because that is the precise demographic 
that is being targeted for forced abortion and forced 
sterilization.
    And the forced sterilization, I would add, just adds 
another layer of guilt and anger to the whole process, because 
what it does is it prevents a women ever from having a make-up 
child, a child to make up for the child that she lost.
    Chairman Smith. Yes, Dr. Eberstadt?
    Mr. Eberstadt. Chairman Smith, if it is all right, I would 
like to return for a moment to the question of sex-selective 
abortion. I was just reflecting on your question there.
    I think we have to say that there are two and only two sure 
ways of eliminating sex-selective abortion anywhere. One way is 
to eliminate the availability of prenatal gender determination 
technology; the other way is to eliminate the availability of 
abortion.
    Interpreter. Ms. Huang would like to respond to the 
question regarding the ``black clinic.''
    Ms. Huang. Last year, I took an American reporter into one 
of these clinics, who became sick to her stomach as she 
witnessed a floor, stained with blood and a back room where 
forced abortions were performed.
    Unfortunately, these clinics are very busy and exist in 
almost every city in China. They are not hard to find.
    I recently began working with China Life Alliance to map 
all of these clinics so abortion rescue teams could attempt 
rescues. Unfortunately, we had to cancel the project because 
there were way too many to count.
    Chairman Smith. Thank you very much. And let me just ask 
anyone who would like to take it--maybe, Dr. Eberstadt, you 
might want to take the first shot at it--and that is the 
numbers.
    I mean, there was a human rights report, State Department 
report, that suggests that there were 100 million missing 
girls, and that was 15 years ago. Obviously, it is a closed 
society and even demographers probably operate with a certain 
amount of restraint because of government pleasure or 
displeasure.
    And Mara Hvistendahl who has testified before our 
Committee, has pointed out that in Asia, there is 160-plus 
million missing females, and that includes India, of course, 
and some other countries where there is a tremendous amount of 
gendercide occurring, sex-selection abortion in particular, to 
lead to that gendercide.
    But we never really can get a handle on how many missing 
girls are there really, and it really becomes--it is important 
because we want to be accurate. But it is a closed society and 
they guard statistics very--we know that even with economic 
data that you can be tried and prosecuted and jailed if you put 
out information that is contrary to the government line.
    So I am just wondering if there is any estimate that is 
based on the best available science that you can convey to the 
Commission.
    Mr. Eberstadt. Chairman Smith, I can tell you a little bit 
about my own homework. There are other people who have done 
their homework and come up with somewhat different numbers.
    Nobody, I think, would say that the number of missing girls 
in the era of the one-child policy in China would be less than 
tens and tens of millions.
    The exact number is somewhat difficult to calculate, 
precisely because of the incentives for hiding children in 
China. If one looks at successive population censuses in the 
People's Republic of China, you see something that you do not 
find regularly elsewhere in the world: With each successive 
population count, more people show up. More children, or 
adolescents, seem to get counted for any given birth year, and 
that is not because there is a lot of in-migration from abroad; 
it is not because people are coming back to life.
    Ordinarily, you would expect fewer from one census to the 
next, with very little migration or even out-migration.
    So the incentives today certainly are for hiding girls--
also hiding boys--and that makes it a little bit difficult to 
tell just what the numbers are.
    The United Nations Population Division, which I think has 
got very good researchers working there, the U.S. Census 
Bureau, likewise, excellent researchers working there, come up 
with slightly different estimates of how many should be 
counted. But that is based upon a certain inference they have 
to make, since undercounting is accepted as being the reality 
today.
    Chairman Smith. Is there a number that you would----
    Mr. Eberstadt. I would have to go back and take a look at 
the data and some of my own work, and I will be very happy to 
send that along. It would be tens and tens of millions.
    Chairman Smith. And we will make that part of the record. 
Thank you.
    Let me--what do you think our next steps ought to be? I am 
today sending another letter to the President asking him to 
enforce the visa ban. I have been involved with several visa 
ban pieces of legislation.
    I wrote the Belarus Democracy Act, which has been well 
implemented by both the Bush and now the Obama administrations, 
that focuses on the dictatorship of Lukashenko in Belarus.
    The Magnitsky Act has had a mixed implementation. That was 
a totally bipartisan effort that obviously focuses on Russia, 
and I am the prime sponsor of the Global Magnitsky Act, which 
is pending, has not passed yet.
    But this legislation goes--the Admiral Nance-Meg Donovan 
Foreign Relations Act of 2000 and specifically a provision of 
that which I put in makes clear that anyone who is complicit in 
forced abortion or forced sterilization is inadmissible to the 
United States.
    And yet we asked the Congressional Research Service to look 
at this, and less than 30 people--and I would fault the Bush 
administration on this as well--they did not aggressively at 
all implement it, even though they were asked to.
    But the Obama administration has turned a blind eye. I have 
asked at hearings, what are you doing? Who knows if we will 
ever get an answer back to this? What would be your 
recommendation?
    You say we have got a policy that is law that can hold 
people to account for--to the extent that we can do it, at 
least deny them access to the United States, and we have not 
done it.
    What would be your thoughts on, or your message to the 
administration on that or anything else it ought to be doing 
right now, if they really care about the women who have been 
victimized, the families, the men--because they are victimized 
as well, but mostly the women, obviously, who bear the scars 
disproportionately to everyone else, and then all the dead 
babies?
    Steven Mosher.
    Mr. Mosher. If I would--add on to that, Mr. Chairman, I 
would point to the very effective move to identify a half a 
dozen military officers who were involved through military-
related enterprises in China and cyberattacks on the United 
States. And the level of cyberattacks is apparently receding 
now, in part I think in response to that.
    I do not thing we would have to identify all 1 million of 
the population control police in China. I think if we 
identified a half a dozen senior officials who were involved in 
implementing the policy, that would send a very strong message 
and would get a reaction immediately in terms of decreasing the 
level of coercion in China.
    If they were--if Chinese officials are aware that they 
would not be welcome in the United States, that they would not 
be able to invest in the United States or visit their children 
who are studying here at American universities or who are 
looking over their American investments in real estate, as 
easily, that would set them back on their heels.
    Chairman Smith. Excellent idea.
    Yes, Ms. Littlejohn?
    Ms. Littlejohn. Chairman Smith, I know that you have been 
leading the fight to defund the UNFPA on the basis of the Kemp-
Kasten violation, involvement with coercive population control, 
the emphasis being the forced abortion aspect of this.
    But in part of the testimony that I was giving while you 
were out of the room, I wanted to convey to you that in our 
villages, something that is really impacting gendercide is the 
forced sterilization aspect of this.
    And the thing about the sterilization is everyone agrees 
that forced sterilization is a crime against humanity. People 
have various issues about abortion; they might not want to 
touch that topic, even if it is forced abortion. Forced 
sterilization everybody agrees on, and it is the forced 
sterilization that really hampers women having girls.
    Because if a woman has a boy first in the village, she is 
going to stop having kids. She does not want to have that 
second child, because she has to be sterilized after the second 
child. So then the chance for the girl to be born or that 
second child does not happen, because of the sterilization.
    And then at the same time, in the countryside where even 
now, if your first child is a girl, you can have a second 
child. Because of the forced sterilization, women are aborting 
those second daughters because they want to save that second-
child place for a boy.
    And so it is the sterilization after the second child that 
is, I think, a huge part of keeping gendercide in place.
    Chairman Smith. Excellent point.
    For the record, the Kemp-Kasten language says that we will 
not support any organization that supports or co-manages a 
coercive population control program. So it is indeed inclusive 
of involuntary sterilization.
    But I think your point as to how this is leading to 
gendercide needs to be emphasized, and I think that was an 
excellent point. Thank you.
    Anything else you would like to add before we conclude?
    [No response.]
    I want to thank you so much for your testimonies. Again, 
both other House commissioners and I deeply regret we missed 
some of it because of the voting that occurred on the floor, 
seven votes. But I have read your testimonies and they were 
excellent, very insightful, full of information.
    And I think, Dr. Mosher, your suggestion that we compile a 
list of people--and any help any of you could provide to us or 
to the Commission--because we will convey that list to the 
administration and also do our own due diligence to try to put 
a list together. I think it is a great idea.
    You do not have to get all 1 million family planning cadres 
or whatever that number is these days. Focus on the leadership. 
And so thank you for that idea.
    With that, I guess there are no other comments, so the 
hearing is adjourned. And thank you very much.
    Panelists. Thank you.
    [Whereupon the hearing was concluded at 12:11 p.m.]

                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


            Prepared Statement of Nicholas Eberstadt, Ph.D.

                            december 3, 2015
    Members of Congress, Distinguished Co-Panelists, Esteemed Guests:
    On October 29 of this year, a shift from a One Child to a Two Child 
norm was announced by the Central Committee of Chinese Communist Party 
at the Fifth Plenum of the 18th Party Congress.\1\ In other words, the 
Party signaled that it would be abandoning the One-Child Policy it had 
promulgated in the very early 1980s, and would now be moving to allow 
all parents in China to have two children.
---------------------------------------------------------------------------
    \1\ ``China to allow two children for all couples,'' Xinhua, 
October 29, 2015, http://news.xinhuanet.com/english/2015-10/29/
c_134763645.htm.
---------------------------------------------------------------------------
    To be clear: that shift has not yet taken place. To the contrary: 
just days after the October 29 announcement, China's National Health 
and Family Planning Commission, which oversees the population program, 
emphasized that the new norms were not yet ``valid,'' \2\ and described 
the Two-Child Policy as a ``proposal,'' \3\ indicating furthermore that 
this proposal would have to be approved by Beijing's legislature next 
year before it might eventually be enacted.
---------------------------------------------------------------------------
    \2\ ``China denies immediate validity of two-child policy,'' 
Xinhua, November 2, 2015, http://news.xinhuanet.com/english/2015-11/02/
c_134774830.htm.
    \3\ ``China stresses two-child policy not yet valid,'' Xinhua, 
November 10, 2015, http://news.xinhuanet.com/english/2015-11/10/
c_134802823.htm.
---------------------------------------------------------------------------
    Suffice it thus to say that all the particulars of this new Two-
Child Policy still remain to be seen. It is not too soon, however, to 
make a few basic points.
    First: The end of the One-Child Policy will not mean the end of 
coercive birth control in China. This critical fact must be 
underscored. The Chinese government is not retiring its enormous 
apparatus of involuntary population plan enforcement. Beijing is not 
relinquishing its claim that the state, rather than parents, is the 
proper authority for deciding how many children China's families may 
have. Instead, the Chinese Communist Party is merely preparing to 
recalibrate the limit that it will impose on its subjects. By all 
indications, the sorts of ugly human rights violations that other 
witnesses will be describing here this morning--up to and including 
criminalizing out-of-quota pregnancies and forcibly compelling 
abortions against the will of the mother--will still be very much part 
and parcel of China's population policy agenda.
    Second: Any Two-Child Norm would necessarily and inescapably still 
expose parents who desire more than two children to coercive birth 
control. While we cannot calculate the size of this group of parents 
with any great precision, it would appear that this group could include 
millions upon millions of would-be parents in contemporary China. That 
group would also disproportionately include China's ethnic minorities, 
including those of Muslim cultural background. Last month The Economist 
detailed the intensification over the past year of an anti-birth drive 
against the Uighur population in China's northwestern province of 
Xinjiang.\4\ For China's population planners, there is no contradiction 
between raising the permissible birth quota and deploying the power of 
the state against birth quota ``violators.''
---------------------------------------------------------------------------
    \4\ The Economist, ``Family planning in Xinjiang: Remote control,'' 
November 7, 2015, http://www.economist.com/news/china/21678007-
government-xinjiang-trying-limit-muslim-births-remote-control
---------------------------------------------------------------------------
    Third: In addition to its obvious demographic focus, China's 
population program should be understood to serve more broadly as an 
instrument of population control, in the more general sense of social 
control. And it is not a ``stand alone'' policy in this regard. We must 
also bear in mind contemporary China's hukou system of household 
registration and residence permits--a system the likes of which is only 
otherwise seen today in North Korea.
    In principle every Chinese citizen today must have government 
authorization to move outside his or her officially designated hukou 
locality, for example in search of work. Persons living and working 
outside their official hukou are in effect illegal aliens within their 
own land, and may in theory be rounded up and deported back to their 
place of origin at any time. (And this is not just a theoretical 
possibility--tens of millions of idled migrant workers were sent back 
to their homes during the global crash of 2008 to forestall any 
possibility of unrest in the urban areas to which they had moved.) At 
this writing, a distinct majority of the young men and women in China's 
big cities are de facto illegal residents, violating established hukou 
rules. [SEE FIGURE 1] Absent far-reaching hukou reform, an ever greater 
share of China's urban population is on track to be comprised of hukou 
violators, given the outlook for urbanization. One might think the 
obvious solution here should be to relax these hukou restrictions--or 
to scrap them altogether. Despite considerable talk about hukou reform 
over the past two decades, Chinese authorities have shown extreme 
reluctance to do away with hukou system in practice.
    Though more intrusive and arguably abusive than pre-Communist 
instruments of social control, these instruments do have antecedents in 
Chinese dynastic history. Indeed, in his classic study of the vast and 
oppressive bureaucratic edifice for maintaining social control over 
rural China under the Qing dynasty, Kung-chuan Hsiao describes a number 
of techniques (such as the baojia neighborhood surveillance system) 
that would have an eerily familiar ring in China today. Over the course 
of two thousand years, observed Hsiao, China's rulers strove to develop 
and perfect ``an administrative apparatus which helped emperors to 
assure obedience and forestall rebellions.'' \5\ Given both the nature 
of current Chinese rule and the tradition that predates it, we should 
not be surprised if authorities in Beijing prove themselves 
surprisingly attached to coercive population policy precisely because 
of the social control it affords the rulers over the ruled.
---------------------------------------------------------------------------
    \5\ Kung-chuan Hsiao, Rural China: Imperial Control in the 
Nineteenth Century, (Seattle: University of Washington Press, 1960), p. 
3.
---------------------------------------------------------------------------
    Fourth: It is worth noting that some Chinese researchers and 
academics are already calling for more aggressive measures to stimulate 
population growth, and the Chinese government is at the very least 
granting such voices a hearing in the state controlled media. Days 
before the announcement of the new Two-Child Policy, for example, the 
official China Daily carried a story titled ``Need seen as `urgent' for 
boosting population,'' in which a Peking University professor is quoted 
as proclaiming ``two children are good, and three are even better.'' 
\6\
---------------------------------------------------------------------------
    \6\ Shan Juan, ``Need seen as `urgent' for boosting population,'' 
China Daily, October 17,2015, http://www.chinadaily.com.cn/china/2015-
10/17/content_22206185.htm
---------------------------------------------------------------------------
    Is it possible that Beijing might reverse course in the future, and 
veer from an anti-natal policy to pro-natalism? If so, China would 
hardly be the first postwar Asian government to conduct such an about-
face. Japan, the Republic of Korea, the Republic of China (Taiwan), and 
Singapore have all done exactly that already. The distinction here, of 
course, is that none of these other governments ever attempted to 
enforce involuntary birth control. A coercive population policy forcing 
Chinese parents to have unwanted births is certainly hard to imagine 
nowadays--but that does not necessarily mean that such a program should 
be dismissed out of hand as an absolute impossibility. As population 
and human rights activist Steven Mosher warned shortly after the 
announcement of the new Two-Child Policy, ``The same party officials 
who have been responsible for decades of forced abortions and 
sterilizations would presumably have no qualms over enforcing mandatory 
pregnancy on young women, if they were ordered to do so.'' \7\
---------------------------------------------------------------------------
    \7\ Steven Mosher, ``A new dawn of reproductive freedom in China? 
Hardly,'' The Federalist, November 6, 2015, http://thefederalist.com/
2015/11/06/a-new-dawn-of-reproductive-freedom-in-china-hardly/
---------------------------------------------------------------------------
    Finally: Among the many unanswered questions concerning coercive 
birth control in China, the most important--and perhaps also 
surprising-- is its ultimate demographic impact. Strange as this may 
sound, demographers and population specialists have yet to offer a 
plausible and methodologically defensible estimate of just how much 
this extraordinarily ambitious and ruthless adventure in social 
engineering has actually altered the size and composition of China's 
population.
    The problem is that we lack any clear idea of what China's 
population trends over the past three and a half decades would have 
looked like in the absence of coercion. Over the decade before the One-
Child Policy, China's birth rates were plummeting. [SEE FIGURE 2] At 
the advent of the One-Child Policy era, demographers now estimate that 
fertility levels in the Chinese countryside were well under half their 
level just ten years earlier, and that fertility was far below 
replacement in China's cities. Indeed, during the 1960s and 1970s, 
birth levels in urban China were already apparently considerably lower 
than in Hong Kong or Taiwan. [SEE FIGURE 3]
    Chinese population control authorities like to claim their efforts 
have averted a cumulative total of over 400 million births.\8\ They 
apparently arrive at that figure by tallying up abortion totals during 
the One-Child Policy era. But if so this would be a fundamentally 
flawed approach to measuring the demographic impact of coercive birth 
control policy. It fails to distinguish between voluntary and 
involuntary abortions, while also ignoring the scope and scale of 
pregnancies averted altogether in the first place under the glare of 
anti-natal pressure. As an approximation of demographic impact, this 
figure cannot be taken seriously--although admittedly it would be 
highly meaningful to know just how many involuntary abortions Chinese 
authorities believe they are responsible for.
---------------------------------------------------------------------------
    \8\ People's Daily, ``400 million births prevented by one-child 
policy,'' October 28, 2011, http://en.people.cn/90882/7629166.html
---------------------------------------------------------------------------
    Perhaps the closest approximation to the true demographic impact of 
the One-Child Policy we could hope for might come from tracking the gap 
between wanted family size and actual family size over time and by 
region or locality for China--if such data were available. Over twenty 
years ago, a path-breaking study by Lant Pritchett and Larry Summers 
demonstrated that desired family size was the single best predictor of 
achieved family size the world over, irrespective of a country's 
culture or income level.\9\ (That same study made a powerful case that 
voluntary family planning programs typically had very little impact on 
overall national fertility levels.)
---------------------------------------------------------------------------
    \9\ Lant Pritchett, ``Desired Fertility and the impact of 
population policies,'' Population and Development Review 20, No. 1 
(Population Council, 1994): pp. 1-55. Summers withdrew his name from 
the study because he had assumed a prominent position in the Clinton 
Administration by the time it was ready to appear in print.
---------------------------------------------------------------------------
    Around the world today, differences in wanted fertility can 
apparently account for over 90 percent of intercountry differences in 
actual fertility. [SEE FIGURE 4] This is an extremely high 
correlation--but it is not perfect. In other words: even if we 
possessed detailed time-series data on desired family size for China in 
the One-Child Policy era, we could not be sure that any differences 
between real existing fertility levels and reported wanted fertility 
were completely due to coercive pressures. Moreover: it is by no means 
obvious that ordinary social science survey techniques are capable of 
eliciting reliable responses about desired fertility in a setting where 
answers to these questions are as fraught and politicized as they 
obviously are in China today. It is telling that Beijing's serious 
over-estimate of the expected demographic impact of its 2013 relaxation 
in the One Child Policy was reportedly due in part to survey research 
in which respondents indicated they would be inclined to have an 
additional child if they had the opportunity; in retrospect it looks as 
if the interviewed couples may just have been trying to provide their 
official questioners with the answers they thought their interrogators 
wanted to hear.
    The devilish difficulty of ascertaining the demographic dimensions 
of the bite from China's police state population control policy has 
most recently been underscored by an important study by Dr. Daniel M. 
Goodkind, who has carefully re-examined the relationship between 
China's population program and the country's rising gender imbalance at 
birth.\10\ Many observers (including me) take it as a given that the 
One-Child Policy has been the cause and the driver of rising sex ratios 
at birth in China over the past three and a half decades, but Goodkind 
challenges us to take a second look. Among his many other points, sex 
ratios at birth are currently at least as high as China's in a number 
of former Soviet states that have never been subjected to coercive 
population programs.
---------------------------------------------------------------------------
    \10\ Daniel Goodkind, ``The claim that China's fertility 
restrictions contributed to the use of prenatal sex selection: A 
skeptical reappraisal,'' Population Studies 69, 3 (Routledge, 2015): 
pp. 263-279.
---------------------------------------------------------------------------
    One curious aspect of Chinese census-taking in the One-Child Policy 
era is that more boys and girls seem to be enumerated for any given 
birth year in every successive national population count--despite the 
fact that China is a slight net out-migration country, and despite the 
predictable toll that mortality must exert. All other things being 
equal, we should expect the counted totals for males and females to 
decline, not rise, from one census to the next. Steady increases in 
enumeration for given birth years since 1980 are not characteristic, we 
should note, of either India or Indonesia--two other huge Asian 
populations with slight net out-migration.\11\ [SEE FIGURES 5 TO 7]
---------------------------------------------------------------------------
    \11\ I would like to thank Mr. Alex Coblin of American Enterprise 
Institute and Ms. Katherine Cole of Dartmouth for their research 
assistance in preparing these figures.
---------------------------------------------------------------------------
    How then to explain the steadily rising count for children born in 
the One-Child Policy era? China's levels of illiteracy are not higher 
than Indonesia's or India's--nor would we ordinarily think of the 
Chinese government's reach as distinctly more limited. Some other 
explanation must account for this.
    It is tempting to take these rising population counts for given 
birth years in contemporary China as a reflection of a widespread 
tendency for parents to ``hide'' their children from authorities at a 
time when penalties for violating birth quotas could be severe. And 
this may be part of the dynamic revealed in Figure 5--but no more than 
part of it. For enumeration by birth year seems to keep on rising for 
this generation of Chinese on into their teens, and then into their 
twenties. It is difficult to envision plausible storylines for how a 
forcible birth control policy could incentivize people to avoid 
enumeration at those stages in the life cycle.
    Forcible birth control looks to be the Chinese government's 
preferred policy path for the indefinite future. What is incontestable 
is that this path guarantees systematic human rights abuse. Much less 
well understood is what impact forcible population control stands to 
exert on the demographic rhythms of Chinese society. Demographic 
specialists need to pay much more attention to this question than they 
have to date.
                                 ______
                                 

                Prepared Statement of Reggie Littlejohn

                            december 3, 2015
    Honorable members of the Commission, Representative Chris Smith, 
Senator Marco Rubio, distinguished fellow panelists, ladies and 
gentlemen, I am grateful for this opportunity to testify here today, as 
we discuss the fact that China's new Two-Child Policy continues the 
same massive crimes against women and children that were committed 
under the One Child Policy.
    Xinhua News Agency reported on October 29, 2015 that China will 
move to a two-child policy for all couples, ``abandoning its decades-
long one-child policy.''
    Characterizing this latest modification as ``abandoning'' the One-
Child Policy is misleading. A two-child policy will not end any of the 
human rights abuses caused by the One Child Policy, including forced 
abortion, involuntary sterilization or the sex-selective abortion of 
baby girls.
    Coercion is the core of the policy. Instituting a two-child policy 
will not end forced abortion or forced sterilization. As blind activist 
Chen Guangcheng succinctly tweeted:

        This is nothing to be happy about. First the #CCP would kill 
        any baby after one. Now they will kill any baby after two. 
        #ChinaOneChildPolicy
    The reason given for this adjustment is entirely demographic: ``to 
balance population development and address the challenge of an ageing 
population.'' The adjustment is a tacit admission that continuation of 
the one-child policy will lead to economic and demographic disaster. 
The policy was originally instituted for economic reasons. It is ironic 
that through this very policy, China has written its own economic death 
sentence.
    Noticeably absent from the Chinese Communist party's announcement 
is any mention of human rights. The Chinese Communist Party has not 
suddenly developed a conscience or grown a heart. Even though it will 
now allow all couples to have a second child, China has not promised to 
end forced abortion, forced sterilization, or forced contraception.\1\
---------------------------------------------------------------------------
    \1\ ``Why Critics Are Not Satisfied with the End of China's One-
Child Policy.'' https://www.washingtonpost.com/news/worldviews/wp/2015/
10/29/why-critics-are-not-satisfied-with-the-end-of-chinas-one-child-
policy/ 10/29/15; ``Still No Dignity for Chinese Women.'' http://
www.nytimes.com/2015/11/11/opinion/china-one-child-policy-still-no-
dignity-for-chinese-women.html 11/11/15; ``Change from One- to Two-
Child Policy Won't End Forced Abortions in China.'' http://
www.cnsnews.com/news/article/penny-starr/human-rights-advocate-change-
one-two-child-policy-wont-end-forced-abortions 10/29/15; ``Horrors of 
One-Child Policy Leave Deep Scars in Chinese Society.'' https://
www.washingtonpost.com/world/asia_pacific/horrors-of-one-child-policy-
leave-deep-scars-in-chinese-society/2015/10/30/6bd28e0c-7e7b-11e5-bfb6-
65300a5ff562_story.html 10/30/15
---------------------------------------------------------------------------
    Indeed, the CCP has gone out of its way to emphasize that family 
planning restrictions will remain in force. Shortly after the 
announcement of the two-child policy, Vice-Minister of the National 
Health and Family Planning Commission Wang Peian said that ``China 
would not abandon its family planning restrictions.'' He said, ``A 
large population is China's basic national condition so we must adhere 
to the basic state policy of family planning.'' \2\ He also said that 
``China needs to . . . promote birth monitoring'' before the two-child 
policy comes into effect.\3\
---------------------------------------------------------------------------
    \2\ ``2-Child Policy `to fuel growth by 0.5%.' '' http://
www.chinadailyasia.com/nation/2015-11/10/content_15342620.html 11/1/15; 
``China Amps Up PR Campaign Extolling `Two-Child Policy.' '' http://
www.breitbart.com/big-government/2015/11/10/china-amps-pr-campaign-
extolling-two-child-policy/ 11/10/15
    \3\ ``China Stresses Two-Child Policy Not Yet Valid.'' http://
news.xinhuanet.com/english/2015-11/10/c_134802823.htm 11/10/15; ``No 
Help for Chinese Mom Expecting Second Child: New Two-Child Policy Won't 
Be Enacted in Time to Save Pro-Life Leader Facing Pressure to Abort.'' 
http://www.worldmag.com/2015/10/
no_relief_for_chinese_mom_expecting_second_child 10/30/15
---------------------------------------------------------------------------
    It appears, therefore, that China plans to maintain its iron grip 
over the wombs of women. The Chinese Communist Party will continue to 
intrude into the bedrooms and between the sheets of the families in 
China, requiring an arduous process to obtain a ``birth permit,'' a 
system of paid informants, and ultrasound checks to make sure that a 
woman's IUD is still in place.\4\
---------------------------------------------------------------------------
    \4\ ``China's Population-Control Machine Churns On.'' https://
www.freedomhouse.org/blog/china-population-control-machine-churns 1/13/
14
---------------------------------------------------------------------------
    Coercion is the core of the policy. Instituting a two-child policy 
will not end forced abortion or forced sterilization.
    The problem with the one-child policy is not the number of children 
``allowed.'' Rather, it is the fact that the CCP is telling women how 
many children they can have and then enforcing that limit through 
forced abortion and forced sterilization. There is no guarantee that 
the CCP will cease their appalling methods of enforcement. Women will 
still have to obtain a government-issued birth permit, for the first 
and second child, or they may be subject to forced abortion. It will 
still be illegal for an unmarried woman to have a child. Regardless of 
the number of children allowed, women who get pregnant without 
permission will still be dragged out of their homes, strapped down to 
tables, and forced to abort babies that they want.

The Impact of China's Two-Child Policy on Women in One Area of Rural 
                    China\5\

    Women's Rights Without Frontiers runs a campaign to end the sex-
selective abortion of baby girls in China. Our network of fieldworkers 
on the ground have saved almost 200 baby girls in one area of rural 
China. Through this network, WRWF gets direct, up to the minute 
information about coercive population control in our area of China.
---------------------------------------------------------------------------
    \5\ While shrinking, nearly half of China's population remains 
rural, accounting for some 600 million people. World Bank: ``Urban 
Population (% of total).'' http://data.worldbank.org/indicator/
SP.URB.TOTL.IN.ZS
---------------------------------------------------------------------------
    I communicated with the head of our network over the weekend. Here 
is what she said about the current condition in our villages after the 
announcement of the Two-Child Policy:

Forced Sterilization continues.

    The women in our villages do not see the new Two-Child Policy as a 
big improvement, because of the threat of sterilization. It is a policy 
that women must be sterilized after the second child--especially if 
both children are girls. Women who have a boy as their first child are 
not likely to have a second child, because after the second child, they 
would be forcibly sterilized. These sterilizations ruin not only a 
woman's reproductive health, but her general health as well. After 
these sterilizations, the vast majority of women are ``never the same 
again.'' They will never recover their strength. For example, in our 
villages there is no running water. Women need to pump water out of a 
deep well. Before they are sterilized, women are strong enough to pump 
water. After they are sterilized, they are no longer strong enough to 
pump water. This weakness lasts forever and is devastating, because the 
family depends on the strength of the mother to do farm work.
    Especially women whose first child is a girl feel they have to hide 
their second pregnancy, because they will be automatically sterilized 
after the second child. If their second child is also a girl, they do 
not want to be sterilized, because the procedure may break their health 
and because they want to try again for a boy. Many women will abort or 
abandon their second daughter under the Two-Child Policy, just as they 
did under the One Child Policy. The second daughters who are allowed to 
be born will be hidden, and thus denied hukou, as in our villages, 
hukou is given to second children only after the mother has been 
sterilized. Requiring sterilization in order for your child to register 
and obtain a birth certificate is an atrocity against both women and 
children.

Forced abortion continues.

    If a woman is illegally pregnant now with her second child, Family 
Planning Officials will come to her home to demand an abortion. The 
Two-Child Policy has yet to be fully implemented. Women whose child was 
conceived before the implementation of the Two-Child Policy are still 
subject to forced abortion or astronomical ``terror fines.'' \6\ If a 
woman wants a second child, she must first obtain a ``birth permit.'' 
These permits are not likely to become available until well into next 
year.
---------------------------------------------------------------------------
    \6\ ``No Help for Chinese Mom Expecting Second Child: New Two-Child 
Policy Won't Be Enacted in Time to Save Pro-Life Leader Facing Pressure 
to Abort.'' http://www.worldmag.com/2015/10/
no_relief_for_chinese_mom_expecting_second_child 10/30/15
---------------------------------------------------------------------------
    According to our network, if a woman is caught illegally pregnant 
and cannot pay the fine, she will still be forcibly aborted, as was the 
case under the One Child Policy. According to the president of a local 
hospital and a family planning official contacted by our network, if a 
woman runs away in an attempt to escape the fine, and is caught, she 
will be forcibly aborted. The woman will have no recourse to a court of 
law, as courts will not accept such cases.
    In our villages, whether or not a woman is actually forced to have 
an abortion depends on the circumstances. Women who are poor, whose 
relatives do not work for the government, and who do not have any power 
to defend themselves are more likely to be forcibly aborted than women 
who have money or whose relatives work for the government. Another 
factor is whether the Family Planning Official handling that particular 
case is merciful or merciless. A pitiless Family Planning Official 
confronting a poor and powerless woman will often lead to a forced 
abortion.
    Women in our villages have resorted to desperate measures to avoid 
forced abortion when faced with an illegal pregnancy. The following 
situation is common in our area:

        ``Ai Bao'' (not her real name) is a two-month old second 
        daughter, with a threeyear-old sister. Since this was an 
        illegal second pregnancy, Ai Bao's mother tried to hide her 
        pregnancy. Still, a Family Planning Officer found her and 
        pressed her to get abortion. Ai Bao's mother found an un-
        married pregnant woman, paid that woman y2000, and arranged for 
        this woman to use the name of Ai Bao's mother to get an 
        abortion. In this way, Ai Bao's mother obtained an abortion 
        certification from the hospital in her own name and turned it 
        in to the local Family Planning Office--to escape the forced 
        abortion of her own daughter, Ai Bao.

Gendercide will continue.

    Instituting a two-child policy will not end gendercide, the sex-
selective abortion of baby girls. Indeed, areas in which two children 
currently are allowed are especially vulnerable to gendercide. 
According to the 2009 British Medical Journal study of data from the 
2005 national census, in nine provinces, for ``second order births'' 
where the first child is a girl, 160 boys were born for every 100 
girls. In two provinces, Jiangsu and Anhui, for the second child, there 
were 190 boys for every hundred girls born. This study stated, ``sex 
selective abortion accounts for almost all the excess males.'' Because 
of this gendercide, there are an estimated 37 million Chinese men who 
will never marry because their future wives were terminated before they 
were born. This gender imbalance is a powerful, driving force behind 
trafficking in women and sexual slavery, not only in China, but in 
neighboring nations as well.
    There is little reason to hope that the two-child policy will 
result in a significant improvement of the sex ratios at birth. Many 
women whose first child is a boy may choose not to bear a second child 
because of the great expense of raising a child in China. In the 
alternative, they may choose not to have a second child to avoid the 
forced sterilization required after two children. Women whose first 
child is a girl will still abort second daughters in order to have a 
son.
    In addition, a technology that is potentially dangerous to girls 
has found its way to China. It has recently been discovered that ``cell 
free'' fetal DNA can be found in the blood of the pregnant mother. 
Noninvasive prenatal testing, whose ominous acronym is ``NIPT,'' is a 
new way to detect chromosomal abnormalities of a fetus through 
analyzing the blood of the mother. This simple blood test given to the 
mother, however, can be used to determine the gender of a fetus as 
early as seven weeks into the pregnancy. Results are available within 
48 hours. Where brutal son preference meets non-invasive, early sex-
determination of a fetus, inevitably baby girls will be selectively 
aborted.\7\
---------------------------------------------------------------------------
    \7\ ``Experts Worried Pre-Natal Blood Test Might Lead to Sex-
Selective Abortions.'' http://www.telegraph.co.uk/news/health/11980660/
Experts-worried-pre-natal-blood-test-might-lead-to-sex-selective-
abortions.html. 11/6/15; ``New Method Allows Noninvasive prenatal 
testing to detect more diseases: Study.'' http://news.xinhuanet.com/
english/201511/10/c_134799694.htm, 11/10/15
---------------------------------------------------------------------------

Hukou Abuses Continue.

    WRWF's network reports that in our area, unless a woman is 
sterilized, her second child will be denied household registration or 
hukou. Without hukou, children are denied access to healthcare, 
education and other public benefits.
    For illegal extra births, Chinese Family Planning Officials may 
exact enormous sums for a family to obtain hukou. Frustrated fathers 
have lost control and murdered family planning officials.\8\ Some men 
have resorted to suicide in protest over the excessive fines imposed by 
the government.\9\ The spirit of the Cultural Revolution lives on in 
the family planning police, who have been able to steal, intimidate, 
torture and kill with relative impunity.
---------------------------------------------------------------------------
    \8\ ``Crazed Chinese father-of-four stabs two government officials 
to death over one child policy.'' http://www.dailymail.co.uk/news/
article-2376771/Chinese-father-kills-1-child-policy-officials-
registering-4th-child.html 7/24/13.
    \9\ ``Chinese father of four commits suicide over one-child policy 
fines so his children can go to school.'' http://www.lifesitenews.com/
news/chinese-father-of-four-commits-suicide-over-one-child-policy-
fines-so-his-c. 5/26/14; ``Farmer drinks poison after being fined for 
violations of family planning policy.'' http://www.globaltimes.cn/
content/830847.shtml 12/8/13
---------------------------------------------------------------------------
    There has been recent talk of registering 13 million people who do 
not have hukou. The motive appears to be an attempt to ``make the 
population look less unbalanced.'' \10\
---------------------------------------------------------------------------
    \10\ ``Plan to Register 13 Million `Unofficial' Chinese Sparks 
Doubts.'' http://www.rfa.org/english/news/china/plan-to-register-13-
million-unofficial-chinese-sparks-doubts-11252015100418.html 11/25/15
---------------------------------------------------------------------------
    WRWF demands the unconditional end of the hukou system as being 
inhumane. Eliminating hukou by itself, however, will not end gendercide 
unless it is accompanied by the elimination of forced sterilization and 
all coercive birth limits. Women will notregister a second child for 
hukou if they will be sterilized for doing so. Women will not register 
second daughters for hukou if by doing so they are giving up the chance 
to have a son.

China's Massive Population Control Apparatus Will Remain Intact.

    Some have publicly wondered: What will happen to the army of Family 
Planning Officials, now that China has ``abolished'' the One Child 
Policy? \11\ This question is overly optimistic.
---------------------------------------------------------------------------
    \11\ ``After the One-Child Policy: What Happens to China's Family-
Planning Bureaucracy? '' http://blogs.wsj.com/chinarealtime/2015/11/12/
after-the-one-child-policy-what-happens-to-chinas-family-planning-
bureaucracy/ 11/12/15
---------------------------------------------------------------------------
    The Two-Child Policy remains just as coercive as the former One-
Child Policy. This infrastructure of coercion can be turned to crush 
dissent of any kind. It will therefore be maintained under the Two-
Child Policy.
    There is growing unrest inside China. ``[I]nternal Chinese law 
enforcement data on so-called ``mass incidents''--a wide variety of 
protests ranging from sit-ins to strikes, marches and rallies, and even 
genuine riots--indicated that China has seen a sustained, rapid 
increase in those incidents from 8,700 in 1993 to nearly 60,000 in 
2003, to more than 120,000 in 2008.\12\ Meanwhile, there are as many as 
1 million Family Planning Officials.\13\ This army of Family Planning 
Officials can be turned in any direction to crush dissent of any sort. 
Does the Chinese Communist Party regard this army as necessary to 
maintain control in a tinder-box situation?
---------------------------------------------------------------------------
    \12\ ``China's Social Unrest Problem--Testimony before the U.S.-
China Economic and Security Review Commission.'' Murray Scott Tanner, 
Ph.D. http://www.uscc.gov/sites/default/files/
Tanner_Written%20Testimony.pdf. 5/15/14; see also, ``Rising Protests in 
China.'' http://www.theatlantic.com/photo/2012/02/rising-protests-in-
china/100247/. 2/17/12.
    \13\ ``Family Planning: Enforcing with a smile.'' http://
www.economist.com/news/china/21638131-enforcers-chinas-one-child-
policy-are-trying-new-gentler-approach-enforcing-smile. 1/10/15; ``The 
bureaucracy that oversees family planning in China is enormous. 
According to official statistics of the National Health and Family 
Planning Commission (NHFPC), there are over 500,000 administrative 
staff and technical service providers from the central government down 
to the township level devoted to both policy enforcement and family 
planning generally. In addition, more than 1.2 million cadres assist in 
birth planning at the village level.'' ``After the One-Child Policy: 
What Happens to China's Family-Planning Bureaucracy? '' http://
blogs.wsj.com/chinarealtime/2015/11/12/after-the-one-child-policy-what-
happens-to-chinas-family-planning-bureaucracy/ 11/12/15
    If China's Family Planning Officials were an army, they would tie 
with North Korea as the sixth largest army in the world. ``World's 
Largest Armies.'' http://www.globalsecurity.org/military/world/
armies.htm.
---------------------------------------------------------------------------

The Chinese Communist Party Will Never Relinquish Coercive Population 
                    Control

    As fully explained in my Congressional testimony of April 30, 2015, 
the Chinese Communist Party will never relinquish coercive population 
control because 1) it enables them to maintain its grip on power 
through terror--it is social control, masquerading as population 
control; 2) it is a lucrative profit center, bringing in as much as 
$314 billion in fines since its inception; 3) it provides and 
infrastructure of coercion that can be used to crush dissent of any 
sort; and 4) it ruptures relationships of trust, so that people cannot 
organize for change. I believe that the Chinese Communist Party is 
maintaining its grip on power by shedding the blood of the innocent 
women and babies of China.

Conclusion

    Sending out the message that China has ``abandoned'' its one-child 
policy is detrimental to sincere efforts to stop forced abortion and 
gendercide in China, because this message implies that the one-child 
policy is no longer a problem. In a world laden with compassion 
fatigue, people are relieved to cross China's one-child policy off of 
their list of things to worry about. But we must not do that. Let us 
not abandon the women of China, who continue to face forced abortion, 
and the baby girls of China, who continue to face sex-selective 
abortion and abandonment under the new Two-Child Policy.
    The one-child policy does not need to be modified. It needs to be 
abolished.

Policy Recommendations

    We respectfully request that the U.S. government urge the Chinese 
government to:

        <bullet> Abolish the Two-Child Policy and all forms of coercive 
        population control;
        <bullet> Offer incentives for couples to have girls; \14\
---------------------------------------------------------------------------
    \14\ We have found in our ``Save a Girl'' campaign that the 
encouragement of modest monetary support is enough to make the 
difference between life and death to a baby girl. ``Twin Girls Saved 
from Abortion in China, Husband's Family Only Wanted Boys.'' http://
www.lifenews.com/2014/05/30/twin-girls-saved-from-abortion-in-china-
husband-family-told-wife-they-only-wanted-boys/ 5/30/14.
---------------------------------------------------------------------------
        <bullet> Offer pensions to couples who do not have a son, 
        ensuring that parents of girls will not become impoverished in 
        their old age; and
        <bullet> Abolish the hukou system, so that all children will 
        have access to healthcare and education.

    In addition, we respectfully request that the U.S. government:

        <bullet>Establish principles of Corporate Social 
        Responsibility, to ensure that U.S. corporations do not allow 
        coercive population control measures to be taken against their 
        employees; and
        <bullet>Defund UNFPA, unless and until UNFPA stops supporting 
        or participating in the management of a program of coercive 
        abortion or involuntary sterilization in China, in violation of 
        the 1985 Kemp-Kasten Amendment.
                                 ______
                                 
                                 [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
                                 
                   Prepared Statement of Jennifer Li

                            december 3, 2015

            China Through My Eyes, as an American Expatriate

    Honorable Chairman Congressman Smith, Co-Chairman Senator Rubio, 
Members of the Congressional-Executive Commission on China, and 
distinguished guests:
    I am honored to be here today, and to speak with you about China's 
new two child policy, to share my perspective and my experience with 
you.
    I moved to China seven years ago. My husband and I were eager to 
learn the language and get to know the culture. We knew that a one 
child policy existed, and we knew that boys were considered the more 
desirable gender in Chinese culture. At first, neither of these things 
seemed that significant, until we began to really look around us. On 
the way to school in the morning, on the backs of grandparents' 
bicycles, we would see two boys for every girl. As children were doing 
their exercises in the school yards, we noticed the same thing: boys in 
great number, girls in lesser. We began to ask questions; ``Where are 
all the girls?'', ``Where are the children with disabilities?'', ``Do 
these families WANT more than one child? Or are they satisfied?''
    As our language skills increased and as we began to make friends 
among local families, it all began to make sense. Couples were being 
pressured in draconian ways to manage their family size with abortions. 
It was hard to believe, but it was real. Despite it being illegal to 
tell parents the gender of an unborn baby, ``black'' abortion clinics 
are enabling parents to have gender-selective abortions.
    As to the question ``do they want more than one child?'' I asked 
the question of hundreds of people, old and young, during my time in 
China, and every single time, the answer was ``YES, I wish I could have 
as many as I want. But I can't.''
    I would walk down the street with my children, and every day, every 
single day, one or more people would tell me how ``lucky'' I was that I 
had a few children, and bemoan the fact that their government would 
only let them have one.
    We can call it a ``one-child policy'' or a ``two-child policy.'' We 
can call it whatever we want. But we cannot deny the reality that it 
leaves men and women across the country without the reproductive rights 
the rest of the world thinks of as a basic human right.
    As our awareness of this heartbreak in China grew, so did my 
husband's and my desire to do something about it. It started off just 
as helping a few friends who were pregnant. We realized quickly that 
this was not ``pro-life'' work as we understood it in the west. The 
common answer that I learned while volunteering in the USA at pregnancy 
resource centers was ``You have options.'' In China, there were 
seemingly no options. As we embraced our friends our burden grew. We, 
along with a small team of local individuals, started a coalition for 
the purpose of helping pregnant women who wanted to keep their 
children. As time passed, we learned that there are ways to save babies 
in China. After starting a variety of creative baby-saving initiatives 
and enduring great hardships, we partnered with churches and nonprofit 
groups to form what is now known as China Life Alliance, a coalition of 
Chinese individuals and groups that rescue thousands of children each 
year before they are abandoned, sold, or killed. We do this by 
educating and mobilizing groups to rescue women and save children 
through our safe house network, legal aid network, coerced-abortion 
rescue teams, and many other ways.
    Over the years, my husband, the CLA team and I have seen 
unimaginable and horrible human rights violations right before our 
eyes. This has been the greatest and most difficult cause of our life. 
However, today I would like to step back and to share with you the 
personal stories of three of my friends. Each has a unique story. Each 
of them is dear to my heart. For each of them, the outcome would not 
have been much different under this new, ``two-child policy.''
    1) First, I want to tell you about my friend and language teacher, 
Lydia. She translated for me during an ultrasound when I was pregnant. 
Hospitals do not usually allow women to see their ultrasound images, 
and despite having a master's degree, Lydia had never seen an image of 
a baby in the womb. As she watched my child moving around inside me, 
she was moved to tears by the wonder of it. Lydia had one child and had 
already had one coerced abortion. A year later, when she became 
pregnant again, she and her husband ended up on our living room couch 
sobbing, because they did not want to end the life of their child. She 
and her husband made many brave and difficult choices, and through the 
support of other Chinese people they met through the China Life 
Alliance, came up with solutions to save the life of their unborn 
child.
    2) Next, I'd like to share with you the story of my friend Ivy. Ivy 
was a single college student when she discovered that she was pregnant 
by her married professor. The consequences for Ivy, when she chose to 
give birth to her daughter, and not abort or abandon her, were severe. 
Ivy was kicked out of college and her daughter was never issued a birth 
certificate, which meant she could not go to school, be treated at a 
hospital, or travel. She is one of the most courageous women I have 
ever met. Because she was a single mother, Ivy could not get a normal, 
government sanctioned job. She spent her daughter's entire life getting 
paid ``under the table'' for the work she did. She did this with 
virtually no support, other than from a few people in her church. No 
man would marry her, because under that one child policy, they would 
not be able to have a child of their own. Now Ivy is one of the women 
who works in the China Life Alliance Network to help other women who 
find themselves single and pregnant.
    3) Population control like this can put a dramatic pressure on 
families who have a child born with a disability. My friend and I were 
involved with Grace, who had a baby girl born with Down syndrome. In 
their minority people group, they would be allowed to have two 
children. The pressure of feeling they needed to have both children be 
``healthy'' and preferably male, in order to help earn income for the 
family, proved to be too much for them. Then Grace's mother-in-law 
attempted to smother the infant when she was only 5 days old. Grace 
called my friend and we went to try to encourage the family, and to 
help them think through other options. Over and over, we heard both the 
parents, as well as the grandparents say ``it wouldn't be a big deal if 
we knew we could just have more kids!'' But this one ``imperfect'' 
child would count as part of their quota, and the family economics 
couldn't figure out how to make that work.
    It is hard for me to stay composed when I share these stories. I 
saw the tears, I felt their fears. I held their hands and I hold their 
stories in my heart. I want the world to see the reality of the 
heartbreak population control has brought to the people of this 
beautiful nation. While we rejoice for the few families who will now be 
able to have two children instead of one, I believe we must continue to 
speak up for the rights of the women, men, and children whose lives are 
so deeply affected by this policy. As we ask what we can do and how we 
can move forward, let us remember the stories of Lydia, Amy, and Grace. 
Let us honor their courage and bring about change that gives them hope.
                                 ______
                                 

                 Prepared Statement of Steven W. Mosher

                            december 3, 2015

              A New Dawn of Reproductive Freedom in China?

 Despite the new Two-Child Policy, the Chinese Communist Party remains 
               as firmly in control of fertility as ever.

                              introduction
    The Chinese Communist Party has decided that all Chinese couples 
will soon be allowed to have a second child, rather than being 
restricted to only one, as some now are.
    Foreign observers have generally greeted the apparent end of the 
one-child policy with euphoria, as if it somehow represents a new birth 
of reproductive freedom in China. Some have publicly commended the 
Chinese leadership as if they had decided to completely abolish a 
policy that has caused so much physical, emotional, and spiritual 
damage to the families in the nation.
    But the Chinese leadership has done no such thing. China is not 
backing away from draconian birth limits because Communist Party leader 
Xi Jinping has suddenly developed a conscience. No one in the senior 
leadership has ever lost any sleep over the 400 million unborn and 
newborn children their policy has killed over the past 35 years, or 
shed a tear for the hundreds of millions of young mothers forcibly 
aborted and sterilized over this same period, or had a moment's regret 
for China's tens of millions of missing baby girls.
    What keeps them up at night is the dawning realization that their 
misguided policy is crippling China's future economic growth. For at 
least the past two years, China's workforce has been shrinking. Last 
year, the potential workforce fell by 3.71 million, a significant 
number even by China's standards. At the same time, the over-sixty 
population is exploding. According to U.N. projections, it is expected 
to more than double by 2050, reaching an astonishing 437 million. China 
is growing old before it grows rich, and the strains on China's nascent 
pension programs will be enormous.
    The parallels between China's current demographic and economic 
malaise and Japan's demographic and economic decline are striking. The 
Japanese economy has never really recovered from its ``demographic 
recession'' that began in the nineties, brought on by a shrinking 
workforce and a rapidly aging population. China may not recover either 
(as the leadership is now belatedly coming to understand) despite the 
move to a two-child policy.
    But there is another reason, even more fundamental, why I am not 
celebrating the end of the one-child policy. Regardless of whether 
Party leaders allow Chinese couples to have one, two, or even three 
children, the underlying policy has not--and probably will not--change.
    What underlying policy, you may ask? I am referring to the policy 
of ``Planned Birth''--jihua shengyu in Chinese--under which the Chinese 
state, rather than the Chinese people, decide how many children are to 
be born in China each year.
    It was none other than Chairman Mao himself, the founder of the 
People's Republic of China, who first put the Planned Birth policy in 
place. The Great Helmsman, as he was known, decided way back in the 
1950s that the five-year economic plans being drawn up by the Chinese 
Communist Party should control not just production, but reproduction. 
And they have, ever since.
         the planned birth policy: coercive from the beginning
    Not long after the founding of the People's Republic of China, the 
Party-State undertook to control the fertility of the Chinese people. A 
national Planned Birth program was in place and operational by 1953 
which--except for periods of major political upheaval--has continued to 
the present day. Some imagine that these early days were a kind of 
``golden age'' where women were merely ``informed'' about their 
``reproductive choices,'' and then left to use the drugs, devices, and 
surgeries of their choice. This has never been the case. As a general 
rule, the Chinese Party-State has never been content to simply provide 
education in, and encouragement to use, family planning methods. 
Rather, it has always viewed population as a mathematical equation to 
be solved, and been all-too-ready to resort to quotas and widespread 
compulsion when its proposed ``solution'' meets resistance from the 
masses. This tendency to use coercive measures is literally ``built 
into'' the Planned Birth program, not to mention into the Dictatorship 
of the Proletariat itself. When a one-party dictatorship draws up a 
plan, the masses are expected to follow in lockstep. Opposition to the 
plan is seen as seditious, and is oftentimes even characterized as 
counterrevolutionary. The Planned Birth campaign is no exception.
    The first phase of this program of state-planned births ran until 
1958, when it was derailed by the economic chaos of the Great Leap 
Forward and the mass famine that followed. The campaign resumed in 
1962, but this second phase was barely under way before it was abruptly 
terminated in 1966 by the virtual civil war that was Great Proletarian 
Cultural Revolution. After the People's Liberation Army was called in 
to restore order in 1969, the campaign resumed. From that point 
forward, the Planned Birth campaign has continued more or less 
continuously to the present day.
    Strong-arm measures were already apparent in the first phase of the 
Planned Birth campaign. Although they were less noticeable in the 
second, truncated phase, they increased markedly during the third phase 
even before the start of the one-child policy. The two main strategies 
used by the Party during the early-to-mid 1970s--often linked in the 
Planned Birth propaganda of the time--were (1) to delay age at marriage 
and (2) to mandate that multiparous women wear IUDs. Although the 
state-run media remained largely silent on the question of coercion, 
there are credible reports that officials sometimes resorted to forced 
IUD insertions and forced sterilizations during this period. The end 
result was that the Chinese birth rate plummeted as the decade 
progressed.
Coercion in the 1970s
    When the Party-State began to function again in 1969, it resumed 
its efforts to control China's population. No longer would China's 
children be allowed to run riot as Red Guards; instead, their numbers 
would be drastically restricted. The Central Committee of the Chinese 
Communist Party, in conjunction with the State Council, soon issued a 
``Directive on Promoting Planned Birth Conscientiously'' which left no 
doubt about who would decide how many babies were to be born in China. 
It read:

          To promote Planned Birth in cities and in densely populated 
        rural areas and to appropriately control the natural population 
        growth rate so that the problem of births will gradually turn 
        from a state of no planning to a state of planning is a 
        confirmed policy of socialist construction in our country. 
        (italics added)

    The Party began by having its propaganda outlets attack the 
``feudal custom'' of early marriage and repudiate what it called ``the 
reactionary theory on marriage'' that had supposedly been ``advocated 
by Confucius and Mencius,'' who were all-purpose whipping boys in those 
late Cultural Revolution days. Late marriage, on the other hand, was 
exalted as part of the ``thought of Mao Zedong'' and an important 
aspect of the ``class struggle.'' Nationalism was also used to whip up 
enthusiasm for birth planning by describing it as an essential part of 
a ``patriotic health campaign.'' As the Party-State apparently 
intended, this harsh ``class struggle'' campaign rhetoric inspired 
equally harsh measures on the part of lower-level officials to control 
births. The Shanghai Party Committee, for instance, designated the week 
of January 25, 1970 as ``shock week'' for the promotion of birth 
control and late marriage. During this week, the Committee ordered, the 
masses were to be ``mobilized,'' every family was to be visited by 
officials ``in a penetrating and vigorous manner,'' and ``remedial 
measures'' were to be taken ``whenever problems are discovered.'' 
``Remedial measures,'' of course, are a veiled reference to coercive 
practices such as forced IUD insertion and worse. Similar campaigns 
were soon being undertaken in other cities and in rural areas.
    In January 1971 the People's Daily made the astonishing claim that 
``to promote with great effort late marriage and planned births and 
mobilize commune members to practice Planned Birth'' was one of the 
``demands'' of Chinese women.(italics added) In fact, there was 
considerable opposition to the de facto two-child policy that the 
Party-State was effectively imposing on the Chinese people by insisting 
that all women who had borne two children wear IUDs. But, in typical 
fashion, the Party-State blamed opposition on ``class enemies'' rather 
than admit to the existence of popular dissent. PRC President Liu 
Shaoqi, who was purged by Mao during the early stages of the Cultural 
Revolution, was a particular target. It was Liu's ``poisonous 
influence'' that was responsible for the opposition to the planned 
birth campaign, went the official line, for he had spoken 
``disparagingly'' of the Party-State's efforts to regulate births.
    In contrast, planned birth was said to have been encouraged by the 
Great Helmsman himself. Direct statements by Chairman Mao Zedong on the 
policy are hard to find, although he was said to have remarked during 
the 1950s that childbearing in China was ``in a state of anarchy.'' 
Other than this we find his name invoked in a more general way:

        Planned Birth is a work of momentous significance promoted by 
        great leader Chairman Mao and the Party Center and is an 
        important measure for carrying out Chairman Mao's great 
        strategic plan, ``Be prepared against war, be prepared against 
        natural disasters, and do everything for the people.'' . . .

        Thus, Planned Birth is an important thing bearing on the health 
        of the nation, not a trifling matter concerning [only] an 
        individual or a family. . .

Elsewhere we find the People's Daily asserting that Planned Birth work 
was ``in accordance with Chairman Mao's brilliant instruction that 
mankind has to control itself and to multiply in a planned way.'' When 
local cadres proved reluctant to impose the Planned Birth policy on 
their fellow villagers, whom they lived among, Mao's earlier remark 
that childbearing in China was ``in a state of anarchy'' was 
resurrected, but without attribution:

        Planned Birth is a social revolution aimed at changing the 
        customs and habits, breaking the old and building the new. On 
        the question of childbirth, to go over from a state of anarchy 
        to the practice of planning will inevitably meet with 
        resistance. Such resistance comes mainly from the sabotage of 
        the class enemies and from the influence of old ideas and old 
        concepts left over from several thousand years. (italics added)

    It is not surprising that most couples in China were upset, even 
angry, over the Party's usurpation of their traditional prerogatives in 
childbearing. Rather than bowing to the popular will, however, the 
Chinese leadership doubled down. It launched a nationwide propaganda 
campaign which claimed that opposition to the new policy was being 
fomented by ``class enemies'' and ``counterrevolutionaries,'' even as 
it acknowledged that ``feudal ideas'' about childbearing were deeply 
etched in the minds of the Chinese people. By making opposition to the 
state's Planned Birth policy tantamount to treason, the Party raised 
the stakes for those--both within Party circles and among the 
population at large--who might otherwise have opposed it.
    At the same time the Party's propaganda machine went into overdrive 
to try and create at least the perception of popular support. 
Newspapers like the Guangzhou ribao insisted that state birth planning 
was not only in ``the interests and aspirations of the masses of 
people,'' but was in fact ``an urgent demand of the broad masses of the 
people.'' Not only that, but Planned Birth was ``gradually becoming the 
compelling demand and spontaneous action of the masses.'' The Party's 
broadsheet was in effect claiming that Chinese couples were so excited 
by the prospect of limiting their progeny that they were lining up and 
demanding to be contracepted, sterilized, and aborted. State-run radio 
broadcasts were similarly over the top. Radio Hangzhou breathlessly 
asserted that a large-scale sterilization and IUD-insertion campaign 
carried out locally in Zhejiang province had not only been a success, 
but had won ``the acclaim of the masses.'' Like the Guangzhou ribao, it 
made the highly dubious claim that ``the spontaneity of the masses for 
practicing late marriage and Planned Birth control for the revolution 
is being continuously enhanced.''
    By August 1974 the Chinese Party-State was ready to announce to the 
world, through its official news agency, XINHUA, that the country's 
Planned Birth policy had ``achieved initial success.'' Anticipating 
that the international community might suspect that this ``success'' 
had been achieved through coercion, XINHUA's English-language 
dispatches insisted that Chinese families had merely been ``advised to 
have no more than two children'' and that the Planned Birth policy was 
being carried out ``on a voluntary basis under state guidance,'' Later 
that month, that same chilling line--that the policy followed the 
principle of ``voluntary with state guidance''--was repeated in the 
English language journal Beijing Review. How the Planned Birth policy 
could be ``voluntary'' when couples were expected to follow ``state 
guidance'' in bearing children was not explained. Later, I was to 
witness the Party's version of ``voluntarism'' in action as groups of 
three or four officials would ``guide'' distraught pregnant mothers to 
a local clinic for ``voluntary'' second- and third-trimester abortions.
    These several articles also asserted that oral contraceptives, 
IUDs, and sterilization were generally accepted, that the program was 
now being spread to the countryside, and that it was there meeting with 
increasing success. In February 1975 XINHUA touted one of these 
supposed successes: Nangong county, located in Hebei province, had 
reportedly seen its population growth rate drop by 74% in the two years 
since the policy had been implemented in 1973. ``Wherever you go [in 
the county],'' the official news agency boasted, ``you can hear people 
saying `Planned Birth is good.''' The policy had become ``deeply 
embedded in the hearts of the people throughout the county,'' making 
Nangong a ``model'' for other counties to emulate.
    In spite of the fact that, according to Party propagandists, the 
enthusiasm of the masses over this new policy knew no bounds, local 
radio broadcasts from this time suggest that there was considerable 
resistance both from cadres and locals in large parts of the country. 
Why else would these broadcasts urge local cadres to ``strengthen 
leadership'' over the work, grasp it ``firmly and well,'' ``mobilize 
the masses,'' and make the Planned Birth campaign a top priority? Why 
else would they need to ``grasp the class struggle'' and the struggle 
between the ``two lines'' (revolutionary and reactionary) in order to 
``enhance the spontaneity'' of the cadres and the masses? Above all, 
why else would they be told that they must ``consolidate the 
dictatorship of the proletariat,'' an ominous phrase which meant that 
that they were now free to use the mailed fist of state power to crush 
any and all opposition to the Planned Birth policy of the Party? Still, 
as some reports noted, the ``fierce struggle between the two classes'' 
in planned birth work continued, and ``sabotage'' by class enemies 
remained a problem. All localities reported ``successes'' in the 
efforts to implement the policy--they could hardly do otherwise--but 
not a few admitted that, despite their ``successes,'' the work was 
``uneven'' and they had been unable to meet the ``demands'' (i.e., 
targets and quotas) laid out by the Party.
    The Planned Birth campaign rhetoric of the early 1970s reflected 
the harsh, aggressive tone of the Cultural Revolution, a time when 
every statement of the authorities was freighted with ideological 
overtones, and every act charged with political menace. This was a time 
when Lin Biao, Vice Chairman of the CCP and Chairman Mao's designated 
successor, attempted to flee Mao's wrath but died when the plane he had 
commandeered crashed in Outer Mongolia. It was a time when Mao's third 
wife, Jiang Qing, an ambitious woman who had arrogated more and more 
power to herself as Mao slipped into his dotage, made the planned birth 
policy a centerpiece of the continuing Cultural Revolution.
    Lin Biao's name was quickly added to the political invective of the 
day. Along with his fellow ``counterrevolutionary'' Liu Shaoqi, and the 
long-dead ``reactionaries'' Confucius and Mencius, Lin was accused of 
having ``sabotaged'' the Planned Birth campaign. Every provincial, 
county, and commune-level cadre in China was ordered to help expose his 
``towering crimes'' against the campaign and publicly criticize him. 
Since there was absolutely no evidence that he did any such thing, the 
already strident Planned Birth propaganda of the time now began to read 
like the paranoid ravings of a mad political zealot:

          We must seriously organize the masses to study the theory of 
        the dictatorship of the proletariat, implement and propagate 
        Chairman Mao's instructions and the Party's policy on Planned 
        Birth and grasp well the struggle between two lines and two 
        kinds of ideology on Planned Birth work. We must criticize the 
        reactionary fallacies on the question of family, marriage, and 
        childbearing preached by Liu Shaoqi, Lin Biao, and Confucius 
        and Mencius. . . We must eradicate their poison. We must 
        enhance the masses' spontaneity for practicing late marriage 
        and Planned Birth. We must train a large number of activists in 
        planned birth work and give full play to the backbone and 
        vanguard role of revolutionary cadres, Party members, China 
        Youth League members, and militiamen.

    In other words, all of the organizations controlled by the Party-
State were to be enlisted into the struggle to impose the Planned Birth 
policy on ``the masses.'' And ``the masses'' were going to like it--
``spontaneously'' of course--or else. Or again:

          To practice Planned Birth is a profound revolution in the 
        ideological sphere. To carry out this ideological revolution 
        for `getting rid of the old and establishing the new' and 
        `changing existing habits and customs,' we must thoroughly 
        break away from the traditional relations of ownership [of 
        children], the traditional concepts, and eradicate the old 
        ideas and habits on the issue of marriage and parenthood left 
        behind over the past several thousand years. Therefore, to make 
        a success of Planned Birth work is an important aspect of 
        consolidating and developing the victorious achievements of the 
        Great Proletarian Cultural Revolution. The remnant poison of 
        the reactionary fallacies spread by Confucius and Mencius. . . 
        is very extensive and their influence is extremely deep. 
        Bourgeois rights also are reflected in the issues of marriage 
        and parenthood. The class enemies also try by every way 
        possible to carry out sabotage. Therefore, in order to 
        institute Planned Birth, we must also take the class struggle 
        as the key link, persist in the Party's basic line, seriously 
        study the theory of the dictatorship of the proletariat, 
        persist in exercising all-around proletarian dictatorship over 
        the bourgeoisie, firmly grasp the struggle between two classes, 
        two lines, and two kinds of ideology in marriage and 
        parenthood, develop revolutionary mass criticism deeply and 
        protractedly, criticize thoroughly the reactionary fallacies 
        advocated by Liu Shaoqi, Lin Biao, Confucius, and Mencius on 
        the issue of the family, marriage, and parenthood, and 
        eradicate their remnant poison.

    In Junan Commune, located in the Pearl River Delta of Guangdong 
province, where I did my original field research in China, these were 
the years in which virtually every women of childbearing age with three 
or more living children was either inserted with an IUD, or given a 
tubal ligation. Interviews with local women who had been sterilized 
under duress convinced me that local cadres had followed their orders 
to the letter. They had indeed ``firmly grasped the struggle between 
the two lines'' and ensured that ``the dictatorship of the 
proletariat'' had carried the day. The ``reactionary fallacy'' that 
couples could have as many children as they wanted was in retreat, 
replaced by the new Party line: the Chinese Communist Party, and the 
state apparatus that it controlled, would henceforth be in charge of 
regulating births under a state plan.
             childbearing under a state plan will continue
    This is why the shift to a two-child policy is occurring as part of 
the next five-year plan, approved at the latest meeting of the CCP 
Central Committee. The official communique about the meeting, released 
by China's official Xinhua News Agency on October 29th, made clear that 
in the 13th Five-Year Economic Plan, China's leaders had decided to 
ramp up both production and reproduction.
    The communique itself, written in the almost unreadable pastiche of 
slogans that the Party resorts to on such occasions, read: ``Promote 
the balanced development of the population; resolutely carry out the 
basic policy of Planned Births; thoroughly implement the policy of each 
couple birthing two children; actively begin to address the aging of 
the population.''
    Of course it is already far too late to ``rebalance'' the 
population in order to stop the rapid ``aging of the population.'' 
Those trends are already baked into the demographic cake, as it were. 
No spike in planned births, however robust, is going to offset the 
hundreds of millions of ``planned'' deaths that preceded it.
    Moreover, it is doubtful whether the new policy will have much of 
an impact at all. When the one-child policy has been relaxed in the 
past--first for rural couples whose first child was a girl, then for 
all rural couples, then for urban couples where both the husband and 
wife were only children--the results have been underwhelming.
    The last tweaking of the Planned Birth policy, which occurred just 
two years ago, was particularly disappointing to Party leaders hoping 
for a baby boomlet. The government had ``announced'' that couples in 
which only one spouse was an only child would be allowed two children, 
and planned for 20 million births in 2014. Only 16.9 million babies 
actually materialized. And out of 11 million couples eligible to have a 
second child, only 1.45 million had applied for a ``permit'' by May of 
this year.
    These figures suggest that, at least among China's urban 
population, millions of couples are not eagerly waiting to fill the 
maternity wards. Forty years of anti-natal, anti-child propaganda has 
left its mark on the Chinese psyche. Few Chinese young people, who are 
themselves only children (and often the children of only children), are 
inclined to be generous when it comes to having children of their own. 
They would rather spend their limited incomes on themselves than, say, 
disposable diapers.
    The Chinese are not alone in having below-replacement fertility. 
Every developed Asian country, from Japan and South Korea, to Taiwan 
and Singapore, is suffering from the same demographic malaise. The 
difference is that these countries grew rich before they began growing 
old. China, as a result of its misguided one-child policy, is growing 
old before it is rich.
    What will the China's leaders do if, as now appears likely, the 
Chinese people do not procreate up to plan?
    At present couples are permitted to have a second child, but I 
don't expect the matter to end there. Soon they will be ``encouraged,'' 
then ``motivated'' and finally ``ordered'' to bear children. A 
government bent on regulating its population under a state plan will do 
whatever necessary to ``produce'' the number of children it has ordered 
reproduced.
    If this prediction sounds, well, a little overwrought, consider 
what China has been doing to young, pregnant mothers for the better 
part of two generations now.
    At the outset of the one-child policy, Paramount Leader Deng 
Xiaoping ordered his officials to ``Use whatever means you must'' to 
force the birthrate down. ``With the support of the Communist Party, 
you have nothing to fear,'' he assured them. They took him at his word, 
and women were rounded up en masse to be aborted, sterilized, or 
contracepted.
    Even today, these kinds of abuses continue. As recently as two 
months ago, a mother was forced to sacrifice the life of her unborn 
child to save her husband's job. She was eight months pregnant. Not 
long before, a Shaanxi woman was taken by force from her home by a gang 
of Planned Birth officials and given an abortion. She was seven months 
pregnant, according to reports from the Guardian.
    The same Party officials who have been responsible for decades of 
forced abortions and sterilizations would presumably have no qualms 
enforcing mandatory pregnancy on young women, if they were ordered to 
do so.
    An example of just this kind of coercive pro-natal policy comes 
from neighboring North Korea, one of the most rigidly controlled 
countries on earth. Dictator Kim Jong-un, worried about the country's 
falling birth rate, has just ordered ob-gyns to stop inserting IUDs, 
and has declared that abortion will henceforth be illegal.
    If the higher birthrate called for by China's new Planned Birth 
policy can not be achieved voluntarily, China's leaders may take 
similar actions. Childbearing may become mandatory. Regular pelvic 
examinations will be instituted to monitor menstrual cycles and plan 
pregnancies. Abortion may be forbidden. Such measures, long in place in 
China to restrict childbearing, may be instituted to increase the 
number of children born.
                            recommendations
    1. China's leaders should abandon the Planned Birth policy 
altogether. They should allow couples to freely choose the number and 
spacing of their children, and have as many, or as few, as they desire.
    2. China's leaders should respect the consensus of the 
international community as expressed in the policy of the UN Population 
Fund, which affirms that couples enjoy the right to responsibly decide 
the number and spacing of their children.
    3. The National Health and Planned Birth Commission (NHPBC), 
created in 2013 from the merger of the Ministry of Health and the 
National Population and Planned Birth Commission, should revert to its 
former role as a Ministry of Health, and its Planned Birth arm 
abolished.
    4. Only if these reforms are undertaken will forced abortions and 
forced sterilizations, which have characterized China's Planned Birth 
policy from the beginning, come to an end.
                                 ______
                                 

  Prepared Statement of Hon. Christopher Smith, a U.S. Representative 
 From New Jersey; Chairman, Congressional-Executive Commission on China

                            december 3, 2015
    The Chinese government has spent the past 35 years telling couples 
what their families must look like.
    Thirty-five years of state sponsored violence against women 
including coerced abortions and involuntary sterilizations in the name 
of population control.
    Thirty-five years of viewing children as ``excess baggage'' from 
the day they are conceived, particularly the girl child.
    Thirty-five years or wasting precious human potential.
    And, thirty-five years of committing massive crimes against women 
and children enabled by pro-abortion non-governmental organizations 
(NGOs) and the United Nations Population Fund (UNFPA).
    Despite the platitude and applause by some being heaped on China's 
announced ``Two-Child Policy''--the proposal doesn't change the basic 
structure of coercive population control and it is not some major 
reversal of policy to be lauded. And this so called reform isn't a done 
deal yet. According to world famous demographer Dr. Nichoals Eberstadt, 
who will testify today, the ``One-Child Policy'' may become a ``Two-
Child Policy'' but the coercive population control apparatus remains 
unchanged.
    Dr. Eberstadt says, ``To be clear: that shift has not yet taken 
place. To the contrary: just days after the October 29 announcement, 
China's National Health and Family Planning Commission, which oversees 
the population program, emphasized that the new norms were not yet 
``valid'' and described the Two-Child Policy as a ``proposal,'' 
indicating furthermore that this proposal would have to be approved by 
Beijing's legislature next year before it might eventually be 
enacted.''
    That said, the ``Two-Child Policy'' may allow for more births--if 
``enacted'' at some future date--but it does not remove the pernicious 
incentives given to local officials to pressure or even force mothers 
to abort a child if the birth hasn't been approved by the state and is/
or is the couple's third. Chinese families are still not free to 
determine the size of their own families. Nor does this policy erase 
the enormous physical and psychological damage imposed on women done by 
three and a half decades of highly coercive birth limitations.
    We should not be applauding China's policy, we should be insisting 
they abolish all birth limits--forever.
    Chen Guangcheng, the famous Chinese legal advocate, and human 
rights champion, calls China's population control polices ``genocide.'' 
He calls for an international tribunal to vigorously investigate these 
crimes against humanity. And Mr. Chen calls on the Obama Administration 
to enforce existing U.S. law and bar Chinese officials associated with 
the policy from entry to the United States--I wrote that law, and the 
Obama Administration has completely failed to enforce and implement its 
provisions.
    The Chinese government is not the only one culpable in these 
heinous crimes against women and children. The UN Population Fund 
helped fund birth restrictions, fund forced abortions, and a massive 
and coercive family planning bureaucracy. Several years ago, I had a 
face to face meeting in Beijing with Peng Peiyun, the bureaucrat in 
charge of China's draconian population program. Madame Peng repeatedly 
told me repeatedly that my concerns were unfounded and repeatedly said 
that UNFPA found no coercion whatsoever--a complete whitewash.
    The UNFPA whitewashed China's crimes for decades and continues to 
do so today. On their website, the UNFPA justifies its history in 
China, saying that they ``were tasked by the Executive Committee'' to 
help China and had to ``engage with China as a sovereign nation.''
    Since 1994, the UNFPA claims that their efforts have focused on 
getting China to adopt a ``rights-based approach'' to family planning, 
saying they opposed ``coercion, violence, forced abortion, and 
sterilization as a violation of basic human rights.''
    Yet, there is no evidence to show their efforts made one bit of 
difference in changing China's policies. No evidence that UNFPA 
officials intervened to stop coercion and violence. For the past three 
and half decades, UNFPA funding gave China's policies an international 
stamp of approval.
    The UNFPA is complicit in China's coercive population control 
policies. The United States and others who helped fund the UNFPA 
programs in China are also complicit. It is a dark and bloody stain 
that cannot be washed away.
    I hope China will abolish all aspects of its horrendous birth 
control policy as soon as possible and compensate its victims. For me 
and many others opposed to this policy, it is a matter of justice and 
human rights. For the Chinese government, this is a matter of economic 
survival.
    China's government says it is instituting a ``Two-Child Policy'' to 
stem the twin demographic time bombs of a rapidly aging population and 
millions of men unable to find wives, but this new policy is unlikely 
to solve these problems.
    As the Economist has noted, by 2025, nearly 1 in 4 Chinese citizens 
will be over the age of 60. At the same time, China's working-age 
population has shrunk in each of the past three years. These factors 
are likely to hurt not only government balance sheets but also economic 
growth in China. This should be of particular concern to the Chinese 
Communist Party, as economic growth is the primary source of their ill 
begotten legitimacy.
    The minimal policy change announced in October will do little to 
address the three decade decimation of female population. Approximately 
40 million women and girls--perhaps millions more--are missing from the 
population--a policy that can only be accurately described as 
gendercide. The extermination of the girl child in society simply 
because she happens to be a girl.
    The lack of girls has led to a dramatically skewed gender ratio. An 
estimated 30 million young men who will be unable to find wives in the 
coming decades.
    The Chinese government should be concerned--as should China's 
neighbors and the international community--of the consequences of 30 
million men, unable to find companionship, unable to start families, 
and coming of age precisely at the time that China's economy is 
creating fewer jobs to employ them. That is a ticking time bomb with 
the potential of dramatic consequences.
    We continue to see increased human trafficking for forced marriages 
and sexual slavery. NGOs working in Vietnam, Cambodia, and Burma have 
all reported an increase in trafficking of women and girls into China 
in recent years. Even if China ends its birth restrictions, given the 
current demographics, this problem of a shortage of women in China will 
only get worse in the coming decade.
    In the long line of Chinese Communist Party mistakes, the brutal 
enforcement of population control may be one of the deadliest and most 
hated. The ``Two-Child Policy'' recently announced does little to 
fundamentally change the past and should not be celebrated.
    The international community, led by the United States, must insist 
that China abolish all birth restrictions, dismantle its family 
planning apparatus, compensate the victims of forced abortions and 
sterilizations, raise the legal and inheritance status of girls, and 
permanently close a dark and deadly chapter in Chinese history.
                                 ______
                                 

 Prepared Statement of Hon. Marco Rubio, a U.S. Senator From Florida; 
        Cochairman, Congressional-Executive Commission on China

                            december 3, 2015
    For over three decades, China's barbaric One-Child Policy condemned 
millions of unwanted or ``surplus'' Chinese girls to abortion, 
infanticide, abandonment and human trafficking.
    Following China's recent announcement that it is adopting a 
universal two-child policy, media reports profiled individual Chinese 
families and the trauma they've experienced at the hands of their own 
government: women still grieving the child they were robbed of, parents 
adrift after losing the only child the government allowed them to have, 
families who are too old to take advantage of this policy change. 
Sadly, these types of stories will continue under the new policy.
    Ultimately, China's new two-child policy is as indefensible and 
inhumane as the one-child policy it replaces. In fact, China's new 
policy should be known as the ``forced abortion of child #3'' policy. 
China needs to recognize that its problem isn't that it has too many 
innocent children; it's that they have too many repressive communist 
adults with blood all over their clenched iron fists.
    It would be a mistake to assume this change in any way reflects a 
newfound respect for human rights by Beijing. It is still a population 
control policy and still, at its heart, repressive. When couples 
conceive a third child, the Chinese government will force them to 
eliminate him or her, by any means necessary. There are also doubts 
about those second children conceived in the months between the policy 
announcement and its ultimate implementation at the provincial level. 
China's vast population control apparatus will continue to exist. Birth 
permits will still be required. And second children, already born in 
violation of the previous policy will continue to face tremendous 
challenges--denied the most basic rights of Chinese citizenship.
    A government that possesses such little regard for its own people--
parents and children alike - cannot be relied upon to adhere to other 
international norms.
    This is China's shameful legacy. According to the latest census, 
men outnumber women by at least 33 million. Estimates suggest that 
there will be a surplus of 40-50 million bachelors in China through the 
mid-to late 21st century.
    Couples who have violated the one-child policy have historically 
faced a variety of punishments, from fines and the loss of employment 
to forced abortions and sterilizations. The Annual Report of the 
Congressional-Executive Commission on China (CECC), which I co-chair, 
noted that last year local governments directed officials to punish 
non-compliance with the one-child policy with heavy fines termed 
``social compensation fees,'' which compel many couples to choose 
between undergoing an unwanted abortion and incurring a fine much 
greater than the average annual income of the locality. This is a 
``choice'' no parent should have to make.
    Today, I joined with CECC Chairman, Representative Chris Smith in 
urging Secretary of State John Kerry to provide an update on the 
administration's implementation of the ``Girls Count Act'', which was 
signed into law on June 12. As this law's chief sponsor in the Senate, 
I was motivated by the fact that every year approximately 51 million 
children under the age of five are not registered at birth, most of 
whom are girls, leaving them susceptible to marginalization and 
exploitation. This law directs current U.S. foreign assistance 
programming to support the rights of women and girls in developing 
countries by working to establish birth registries in their countries. 
There is a massive problem regarding children for whom no official 
records exist because they were not registered at birth--this is, of 
course, especially true in China. The legislation also prioritizes a 
variety of rule of law programs intended to raise the legal and 
financial status of girls in order to help address the cultural and 
financial rationale for sex-selective abortions. Again, this component 
has particular relevance to China.
    As a father of four, I believe it is vital that the United States 
continues advocating for the complete elimination of government-forced 
population planning as well as the fundamental rights of all Chinese 
citizens, including the unborn, to live up to their God-given 
potential. The One-Child Policy does not need to be changed; it needs 
to be eliminated entirely. Ultimately, I believe the unborn children we 
are fighting for will form a new generation of Chinese children who 
will lead its transition to a peaceful and democratic nation. China's 
children--all of them--represent the country's best hopes for the 
future, not the fading crony communists fighting to eliminate them.

                       Submissions for the Record

                              ----------                              


  How Many ``Missing Females'' for China's One Child Policy Era (1981-
                                 2015)?

               Some Approximate Illustrative Calculations

                           Nicholas Eberstadt

                 Henry Hendy Chair in Political Economy

                     American Enterprise Institute

                           <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="9cf9fef9eeefe8fdf8e8dcfdf9f5b2f3eefb">[email&#160;protected]</a>

    In this note we offer a few simple illustrative calculations that 
should help to bound the range of plausible estimates for the size of 
the population of ``missing girls and women'' from the cohorts born 
during the One Child Policy era in China (1980-2015).
    The emphasis is on `simple' here--what we show below are a few 
benchmark calculations.
    A more sophisticated set of estimates could be derived from formal, 
and more methodologically sophisticated, demographic projections. We 
offer simpler calculations here because the additional value from a 
more elegant set of projections is not self-evident, given the 
magnitudes of the uncertainties in officially reported Chinese data.
    In a world with perfect information, we could provide an 
approximate estimate of the total ``missing females'' from the One 
Child Policy era as a differential--the sum total of the gap between 
the number of girls and women actually enumerated on the one hand, and 
the ``expected'' number of girls and women we would predict to be 
counted under ``normal'' conditions on the other. Note that there are 
assumptions--about the ``normal'' sex ratio at birth and ``normal'' 
mortality trends for the groups in question, among other things--in 
such calculations, and they affect the results even under conditions of 
perfect information. But the effect on results would be relatively 
small: such differences would matter a lot to demographers, of course, 
but they probably would not really matter that much to people who 
simply wanted a ``ball park'' approximation of the magnitude of this 
problem.
    For better or worse, Chinese demographic data today are far from 
perfect. Vital registration of births and deaths is not yet complete or 
even near-complete.\1\ China's most recent national population count 
was conducted in 2010, and as with earlier Chinese censuses in the One 
Child Era, an under-counting of children and youth appears to have 
taken place. This should not be surprising: in addition to the 
perennial potential for undercounts that besets all census exercises, 
Beijing has created special additional incentives for misrepresenting 
the numbers of children and youth to enumerators. Parents might wish to 
hide their true number of children because they had an ``out of quota'' 
birth, for example, or because they wanted another chance for a son. 
Young adults could be invisible to enumerators if they began life as 
``hidden children'' and were never assigned hukou registration and 
identification papers. No one knows just how many Chinese today exist 
outside the state's hukou registration system, but recently authorities 
in Beijing indicated they believed China's non-hukou population might 
total 13 million persons.\2\
---------------------------------------------------------------------------
    \1\ Shiwei Liu et al., ``An integrated national mortality 
surveillance system for death registration and mortality surveillance, 
China.'' World Health Organization 94, no. 28 (2016): 46-57, 
www.who.int/bulletin/volumes/94/1/15-153148.pdf.
    \2\ Yining Peng, ``13m unregistered people to be given hukou 
recognition,'' China Daily, November 25, 2015, http://
www.chinadaily.com.cn/china/2015-11/25/content--22516606.htm
---------------------------------------------------------------------------
    Rather than base our estimate of missing females on official 
Chinese demographic as reported, we will work instead with the 
reconstructions and projections offered by independent demographic 
experts. The two foremost sources for such work are the US Bureau of 
the Census, through its continually updated International Data Base,\3\ 
and the United Nations Population Division, through its typically 
biennial ``World Population Prospects'' series.\4\ Both of these teams 
released their latest estimates and projections for China in the summer 
of 2015, so we are working here with fairly up-to-date assessments of 
China's demographic profile.
---------------------------------------------------------------------------
    \3\ United States Census Bureau, International Data Base, ``Mid-
year population by single year age groups,'' available at: http://
www.census.gov/population/international/data/idb/informationGateway.php
    \4\ Population Division of the Department of Economic and Social 
Affairs of the United Nations Secretariat, World Population Prospects: 
The 2015 Revision, http://esa.un.org/unpd/wpp/
---------------------------------------------------------------------------
    The Census Bureau and the UN Population Division reconstructions of 
China's 2010 population profile can be contrasted with China's 
officially released 2010 census returns. [SEE TABLES 1 AND 2] By 
convention, the Census Bureau and UN Population Division estimates are 
for midyear (July 1); for its part, China's 2010 census used November 1 
as its ``hour zero.'' All other things being equal, this should mean 
that the totals from the official Chinese count would be a little 
higher than the Census Bureau and UN Population Division estimates, due 
to intervening population growth. But as we can see, both the Census 
Bureau estimates and the UN Population Division estimates conclude 
there was a substantial undercounting of China's younger population in 
2010. By the Census Bureau's reconstructions, the Chinese 2010 census 
undercounted the country's under-30 population (i.e., the persons born 
since 1980) by almost 24 million--over 15 million males and over 8 
million females. By the UN Population Division's reckoning, the 
undercount would have been over 20 million: more than 13 million males 
and nearly 7 million females. The Census Bureau and UNPD 
reconstructions both conclude that the degree of undercount varied not 
only by sex, but also by year of birth--but they do not agree entirely 
amongst themselves on the extent of under-enumeration by age and sex 
for China's younger population. These two reconstructions thus reflect 
somewhat different sets of expert assumptions about China's true 
fertility and mortality patterns.
    The One Child Policy Era was formally inaugurated in September 
1980, with an open letter by the Central Committee of Chinese Communist 
Party in People's Daily. In October 2015, a statement from the Central 
Committee via Xinhua News Agency announced that the One Child Policy 
would be shelved. For the purposes of our calculations, we treat the 
One Child Policy Era as 1980-2015 (even though it would of course be 
possible to date the policy as beginning somewhat earlier, and also 
extending later--after all, the nationwide termination of the policy 
thus far has only been announced, not actually implemented).
    In their population projections for 2015 for China, both the Census 
Bureau and the UN Population Division estimate the total male 
population from birthyears 1980-2015 at a bit over 352 million, and 
both place the total female population from birthyears 1980-2015 a 
little above 316 million. These aggregates are strikingly similar 
(though if we were to dig a little deeper we would see some 
discrepancies in the projections for each birthyear).
    Both series indicate a gap of about 36 million between males and 
females born during the One Child Policy era. Some of this difference, 
however, can be considered natural, insofar as our species is 
biologically programmed to produce slightly more male than female 
offspring. How much of this gap is ``normal'', and how much should be 
regarded as ``missing females'' ?
    We can illustrate a plausible range of rough approximations for 
total numbers of ``missing females'' from the 1980-2015 birth cohorts 
with three scenarios, applied to both the Census Bureau and the UN 
Population Division projections: 1) the sex ratio in China should be 
105 males per 100 females for ages 0 through 35; 2) the sex ratio 
should be 103 males per 100 females for ages 0 through 35; and 3) the 
sex ratio in China should be 105 males for every 100 females at age 0 
(i.e. for the group that has not yet reached its first birthday) but 
should gradually decline to 103 males per 100 females at age 35.
    These scenarios are perforce arbitrary, but they are not entirely 
unreasonable. In China's 1953 and 1964 censuses--the national 
population counts, that is to say, before the dawn of the One Child 
Policy--the enumerated sex ratios for China's babies less than one year 
of age were 104.9 and 103.8, respectively \5\--i.e., they fell between 
103 and 105 for age group 0.\6\
---------------------------------------------------------------------------
    \5\ Thomas Scharping, Table 32 in Birth Control in China 1949-2000: 
Population policy and demographic development (New York: Routledge, 
2013).
    \6\ A technical demographic point: the sex ratio at birth and the 
sex ratio of babies less than one year of age are not identical 
quantities because infant mortality rates may differ by sex and usually 
do, typically being higher for boys than girls. China did not report 
sex ratios at birth in its 1953 and 1964 census counts and we do not 
deal with SRBs in this note, as sex ratios for each age group afford us 
the simple approach we use in this note.
    A second and somewhat more technical point concerns the possible 
relationship between mortality levels and age 0 sex ratio in a 
hypothetically ``normal'' China. In 1953 and 1964, when China's first 
two censuses were conducted, China was a high mortality society--but 
mortality levels were much lower in the China of the One Child Policy 
era. Some might surmise that improvements in mortality might affect 
China's sex ratio at age 0 and take the society outside of the range of 
sex ratios we have stipulated here. While recognizing this theoretical 
possibility, we do not attempt to deal with such counterfactuals in 
this note.
---------------------------------------------------------------------------
    If we believed survival schedules for males and females were the 
same from 0 through 35, and that differential migration played no role 
in shaping China's sex ratios (as we will indeed assume throughout this 
exercise), then boundaries for the size of the ``missing females'' 
group might be established by calculating how many babies, girls and 
women should be expected at a sex ratio of 103 or 105, given the number 
of males estimated from each birthyear, subtracting the actually 
estimated number of females in question, and summing the differences 
for all birthyears in question.
    These were the assumptions for scenarios 1 and 2. But of course in 
almost all contemporary populations, women can expect to live longer 
than men--and in most societies today female survival schedules are 
more favorable than male schedules for the 0-35 period.
    Scenario 3 is an effort to take into account the reality of male-
female differentials in mortality. We can get a sense of the magnitude 
of the relevant differentials from the Human Mortality Database \7\ 
estimates of mortality patterns for Taiwan in the year 1980--i.e., for 
a culturally Chinese population before the dawn of sex-selective 
abortion, and where severe discrimination against girls and women was 
not in force. On survival trajectories from that year, 96.7% of 
Taiwanese females could expect to live to age 35--as against 94.5% of 
Taiwanese men. Differential mortality, in other words, would have 
reduced the sex ratio by a bit more than two percentage points by age 
35. (China's overall life expectancy at birth today is believed to be a 
few years higher than was Taiwan's in 1980 but we may still want to use 
this two percentage point differential, not least for the sake of 
simplicity.) Consequently, our scenario 3 begins with a sex ratio of 
105 males per 100 females at 0 and ends with a sex ratio of 103 males 
per 100 females at age 35, interpolating the sex ratio for intervening 
ages.
---------------------------------------------------------------------------
    \7\ Human Mortality Database, University of California, Berkeley 
and Max Planck Institute for Demographic Research, Taiwan Data Series, 
http://www.mortality.org/cgi-bin/hmd/country.php?cntr=TWN&level=1
---------------------------------------------------------------------------
    Table 3 displays the results of these calculations. [SEE TABLE 3] 
Under scenario 1 (a sex ratio of 105 at all ages), we would calculate 
the ``missing female'' total for the One Child Policy era to amount to 
around 19-20 million. Under scenario 2 (a sex ratio of 103 at all ages) 
the ``missing female'' total would be calculated at around26 million. 
Under scenario 3 (a sex ratio of 105 for those not year one year of 
age, gradually shifting to 103 by age 35), the ``missing female'' total 
would be calculated at around 23 million.
    Our central estimate for the number of ``missing females'' from the 
One Child Policy era (1980-2015) is thus around 23 million--although, 
as we have just seen, alternative assumptions could result in estimates 
a few million higher or a few million lower. More detailed and 
sophisticated approaches might of course propose more precise numerical 
answers to the question in the title of this note--but given the 
significant uncertainties inherent in the Chinese data upon which such 
approaches would have to rely, the risk of false precision would be 
high.
    By way of perspective on our calculations: our figures would be 
roughly in the same league as the total population for Taiwan (23.5 
million as of July 2015, according to the Republic of China Statistical 
Bureau).\8\
---------------------------------------------------------------------------
    \8\ Statistical Bureau of the Republic of China (Taiwan), ``Latest 
Indicators,'' http://eng.stat.gov.tw/point.asp?index=9.
---------------------------------------------------------------------------
    Finally: note that our calculations scale the dimensions of the 
``missing women'' problem in relation to ``existing men''. We have no 
way of knowing just how many additional males would have been born in 
China over the past three and a half decades absent population control. 
This is arguably an additional aspect to the ``missing women'' 
question--but one we have no readily reliable method for addressing.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

            [From the Wall Street Journal, October 29, 2015]

           China's New Two-Child Policy and the Fatal Conceit

                        (By Nicholas Eberstadt)

    It is the latest twist in the most ambitious and ruthless social-
engineering program ever undertaken by a modern state: Beijing 
announced Thursday that the Chinese Communist Party will officially 
abandon its one-child policy. Yet it has no plans to relinquish 
authority over its subjects' birth patterns; rather, Beijing has simply 
changed the ration. Now two children per family will be permitted.
    The first partial relaxation came two years ago, when Chinese 
authorities decreed that spouses who were both an only child would be 
allowed to have two children. This fine-tuning was expected to result 
in several million additional births--but only a fraction of that 
number of couples even applied for a second ration coupon. Now, after 
3\1/2\ decades of attempted one-child enforcement, the government can 
no longer ignore that its policy of forcible population control has 
been a disaster. As the Communist Party prepares for its 13th five-year 
plan, it must survey what its quest to remold the Chinese family has 
wrought.
    The one-child mandate is the single greatest social-policy error in 
human history. After Mao Zedong's death in 1976, his legatees were 
horrified to discover how little they had inherited. Despite almost 
three decades of ``socialist construction,'' China was still 
overwhelmingly rural and desperately poor. More than 97% of the country 
lived below the World Bank's notional $1.25 a day threshold for 
absolute poverty, according to recent Chinese estimates. With a 
population still rapidly growing, China seemed on the brink of losing 
the race between mouths and food.
    In their attempt to process these facts, Chinese leaders stumbled 
into an elementary neo-Malthusian misdiagnosis. Rather than focus 
solely on undoing the crushing inefficiencies of their Maoist economy, 
they blamed abysmal productivity on the childbearing patterns of their 
subjects. The outcome was involuntary birth control, promulgated 
through a vast scheme of quotas and an army of family-planning agents.
    This was Socialist ``scientism''--ideology masquerading as 
science--of the highest order. The broad outline was established on 
calculations by a Moscow-minted engineer in China's nuclear program. 
These computations bore no relation to the actual ways in which Chinese 
men and women thought about family life. As soon as the policy was 
rolled out in 1980 and 1981, it collided with human realities.
    First came alarming reports that female infanticide, an ancient 
practice, had once again erupted throughout the countryside. China's 
1982 census, released some years later, showed an unnatural imbalance 
in the sex ratio for birth-year 1981 on the order of hundreds of 
thousands of missing baby girls.
    Infanticide was then replaced by mass sex-selective abortion, made 
possible in the late 1980s by increased rural access to ultrasound 
machines. China's sex ratio climbed to nearly 120 baby boys for every 
100 baby girls, where it plateaued around 2000. Although a war against 
baby girls is evident in other countries--India and Taiwan among them--
leading Chinese demographers have suggested that half or more of 
China's imbalance may directly result from the one-child policy.
    The precise long-term effects have yet to be accurately estimated. 
Chinese authorities claim that the country has 400 million fewer people 
due to the one-child policy, because they have overseen that many 
abortions. But this misleading metric ignores the distinction between 
forced and voluntary abortions.
    To the extent that the policy has achieved its objective, it 
magnified the demographic problems that Communist planners are 
apparently only now beginning to acknowledge. Fertility levels in urban 
China were already well below replacement by 1980. Today the country is 
on track to go gray at a shocking tempo. Two years ago, working-age 
manpower began to decline, according to Chinese authorities. The only 
close comparator is post-bubble Japan: not a cheering vision for what 
remains a relatively poor society.
    And China's cities are now producing a new family type utterly 
unfamiliar to Chinese history: only children begotten by only children. 
They have no siblings, cousins, uncles or aunts, only ancestors (and 
perhaps, one day, descendants). But in a low-trust society, extended 
social networks, known in Chinese as guanxi, play a vital economic 
role. They reduce uncertainty and transaction costs by providing the 
reassurance supplied elsewhere by rule of law and transparency. How 
will Chinese economic performance be affected by the atrophy of the 
extended family?
    Beijing's latest adjustments to population plans seem to have been 
prompted by economic concerns, yet these changes will have only modest 
demographic repercussions. Like other East Asian locales without forced 
population control, the average desired family size in China appears to 
be far below replacement. Beijing also can't rely on immigration for 
demographic help. Even modest gains from the new policy will take 
decades to have an economic impact.
    Contemporary China has a host of top-flight demographers and 
population economists--and so far as I can tell, almost all are critics 
of their country's population program. Some are concerned with human-
rights violations; most pragmatically regard the one-child policy as 
painfully, obviously counterproductive. A number of these experts wrote 
a letter to the State Council a decade ago urging ``reconsideration'' 
(translation: complete scrapping) of the one-child norm--to no effect.
    Why has Beijing stubbornly ignored the advice of its own top 
talent? My baffled Chinese colleagues speculate on possible 
explanations: the difficulty of re-tasking the vast army of population-
control bureaucrats; the value of the hefty fines exacted for out-of-
quota births; the neo-Malthusian ideology to which China's bosses still 
seem to be slave.
    All of these are plausible, but they overlook a key piece: the 
Chinese government's undying claim to totalitarian control over the 
most basic details of its subjects' lives, revealed as well by the 
retrograde hukou system of residence permits that makes urban China's 
migrant workers illegal aliens in their own country. For all the talk 
of ``reforming''--and we have been hearing it overseas for almost two 
decades now--the Chinese government has been unwilling to dispense with 
these instruments of social control precisely because they are 
instruments of social control.
    The ``fatal conceit'' (to borrow Friedrich Hayek's term) of China's 
population planners was that they could micro-calibrate the behavior of 
the men and women under their command. The new two-child policy suffers 
the same flaw. As long as Beijing deforms Chinese society with these 
misbegotten tools, the nation's future will be compromised, poorer and 
sadder than it otherwise could be.

Mr. Eberstadt is a political economist at the American Enterprise 
Institute in Washington, D.C.
                                 ______
                                 

``China's New `Two-Child Policy' and the Continuation of Massive Crimes 
                      Against Women and Children''

                            december 3, 2015

                               Witnesses

    Nicholas Eberstadt, Ph.D., Henry Wendt Scholar in Political 
Economy, American Enterprise Institute

    Dr. Nicholas Eberstadt is the Henry Wendt Scholar in Political 
Economy at the American Enterprise Institute. A political economist and 
demographer by training, he is a senior advisor to the National Bureau 
of Asian Research, and has served on the visiting committee at the 
Harvard School of Public Health, the Global Leadership Council at the 
World Economic Forum and the President's Council on Bioethics. He has 
also served as a consultant to the World Bank, Department of State, 
U.S. Agency for International Development, and the Bureau of the 
Census. With numerous publications on demographics in East Asia, Dr. 
Eberstadt received his Ph.D., M.P.A., and A.B. from Harvard University, 
and his M.Sc. from the London School of Economics.

    Reggie Littlejohn, Founder and President, Women's Rights Without 
Frontiers

    Ms. Reggie Littlejohn is Founder and President of Women's Rights 
Without Frontiers, a broad-based international coalition that opposes 
forced abortion and sexual slavery in China. Ms. Littlejohn is an 
acclaimed expert on China's One-Child Policy, having testified six 
times before the U.S. Congress, three times before the European 
Parliament, and presented at the British, Irish, and Canadian 
Parliaments. She has briefed officials at the White House, Department 
of State, United Nations, and the Vatican. Her ``Save a Girl'' campaign 
has saved more than 150 baby girls from sex-selective abortion or 
grinding poverty in China. A graduate of Yale Law School, Ms. 
Littlejohn was named one of the ``Top Ten'' people of 2013 by Inside 
the Vatican magazine. She and her husband are raising as their own the 
two daughters of jailed pro-democracy dissident Zhang Lin.

    Jennifer Li, Co-Founder, China Life Alliance

    Ms. Jennifer Li lived in China for many years and is a co-founder 
of China Life Alliance, a network of individuals, churches, and 
ministries who seek to protect the lives of millions in China who are 
threatened by abortion, infanticide, abandonment, and trafficking. They 
do this by educating and mobilizing groups to rescue women and save 
children through their safe house network, legal aid network, coerced-
abortion rescue teams and a variety of other ways. As an American 
expatriate, wife, and mother who has raised her children in China, 
speaks Chinese, and has Chinese friends, Jennifer offers a unique 
perspective of the pressures that Chinese women face. Since 2001, 
Jennifer has been actively advocating for women and children and is a 
highly sought after speaker on the topic of women's rights and China's 
One Child Policy.

    Sarah Huang, Activist

    Ms. Sarah Huang has personally rescued more than 80 Chinese women 
and children threatened by abortion, infanticide, abandonment, and 
trafficking. Since 2013, international media has covered the efforts of 
Sarah, a humble pastor in China who has been nicknamed the ``Mother 
Teresa of China,'' as she courageously assists vulnerable women who 
must hide their pregnancies to escape coercive abortions from Chinese 
family planning officials. Sarah has been working closely behind the 
scenes with China Life Alliance and has been pivotal in assisting 
numerous Chinese families, including a number of widely reported forced 
abortion cases that have been leaked into the international media. 
Sarah is currently pregnant with her second child and is now 
experiencing her own battle to save the life of her unborn child from a 
mandatory abortion.

    Steven W. Mosher, President of the Population Research Institute

    Mr. Steven W. Mosher is the President of the Population Research 
Institute (1995 to present) and has worked tirelessly since 1979 to 
fight coercive population control programs. He is an internationally 
recognized authority on China and population issues and an acclaimed 
author of a number of books, including ``Population Control: Real Costs 
and Illusory Consequences'' and the best-selling ``A Mother's Ordeal: 
One Woman's Fight Against China's One-Child Policy.'' He served as the 
Director of the Asian Studies Center at the Claremont Institute from 
1986-95 and was appointed in 1991 to serve as Commissioner of the U.S. 
Commission on Broadcasting to the PRC. He was educated at the 
University of Washington and Stanford University and, following a 
period of naval service (1968-76), in 1979 became the first American 
social scientist permitted to do field research in China since the 
Communist revolution.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
